<html>
<title> - PREVENTING CHILD EXPLOITATION ON THE INTERNET</title>
<body><pre>[Senate Hearing 105-615]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-615

 
             PREVENTING CHILD EXPLOITATION ON THE INTERNET

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

                      COMMITTEE ON APPROPRIATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                               __________

         Printed for the use of the Committee on Appropriations




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington, DC 
                                 20402
                          ISBN 0-16-057482-X

49-462 CC           U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 1998





                     COMMITTEE ON APPROPRIATIONS

                     TED STEVENS, Alaska, Chairman
THAD COCHRAN, Mississippi            ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         ERNEST F. HOLLINGS, South Carolina
CHRISTOPHER S. BOND, Missouri        PATRICK J. LEAHY, Vermont
SLADE GORTON, Washington             DALE BUMPERS, Arkansas
MITCH McCONNELL, Kentucky            FRANK R. LAUTENBERG, New Jersey
CONRAD BURNS, Montana                TOM HARKIN, Iowa
RICHARD C. SHELBY, Alabama           BARBARA A. MIKULSKI, Maryland
JUDD GREGG, New Hampshire            HARRY REID, Nevada
ROBERT F. BENNETT, Utah              HERB KOHL, Wisconsin
BEN NIGHTHORSE CAMPBELL, Colorado    PATTY MURRAY, Washington
LARRY CRAIG, Idaho                   BYRON DORGAN, North Dakota
LAUCH FAIRCLOTH, North Carolina      BARBARA BOXER, California
KAY BAILEY HUTCHISON, Texas
                   Steven J. Cortese, Staff Director
                 Lisa Sutherland, Deputy Staff Director
               James H. English, Minority Staff Director
                                 ------                                

   Subcommittee on Commerce, Justice, and State, the Judiciary, and 
                            Related Agencies

                  JUDD GREGG, New Hampshire, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
PETE V. DOMENICI, New Mexico         DANIEL K. INOUYE, Hawaii
MITCH McCONNELL, Kentucky            DALE BUMPERS, Arkansas
KAY BAILEY HUTCHISON, Texas          FRANK R. LAUTENBERG, New Jersey
BEN NIGHTHORSE CAMPBELL, Colorado    BARBARA A. MIKULSKI, Maryland
                                     ROBERT C. BYRD, West Virginia
                                       (ex officio)
                           Subcommittee Staff
                              Jim Morhard
                             Kevin Linskey
                               Paddy Link
                               Dana Quam

                         Scott Gudes (Minority)
                          Emelie East<greek-l>


                            C O N T E N T S

                              ----------                              

                         DEPARTMENT OF JUSTICE
                    Federal Bureau of Investigation

                                                                   Page

Statement of Hon. Louis J. Freeh, Director, Federal Bureau of 
  Investigation, Department of Justice...........................     1
Opening remarks of Senator Gregg.................................     1
Statement of Senator Hollings....................................     3
Statement of Senator Mikulski....................................     3
Summary statement of Director Freeh..............................     4
CyberTipline.....................................................     5
Innocent Images initiative.......................................     5
Child abduction and serial killer unit...........................     6
Training.........................................................     6
Public awareness.................................................     6
Innocent Images cases............................................     7
National coordination............................................     7
Regional State and local task forces.............................     8
DNA profiles.....................................................     8
Private industry assistance......................................     8
Crimes Against Children Program accomplishments..................     9
Prepared statement of Louis J. Freeh.............................    10
Implementation of 1998 FBI enhancements..........................    10
Innocent Images..................................................    12
Challenges for combating child exploitation......................    13
Crimes against children..........................................    14
Extent of Internet child pornography problem.....................    15
Traveler cases...................................................    16
DNA tracking system..............................................    17
Federal, State, and local cooperation............................    18
Caliber of FBI agents............................................    19
Resources needed.................................................    20
St. Mary's College students in Guatemala.........................    21
Congressional intent.............................................    21

                        NONDEPARTMENTAL WITNESS

Statement of Ernest E. Allen, president and CEO, National Center 
  for Missing and Exploited Children.............................    23
     Prepared statement..........................................    29
An update on our progress in addressing child sexual exploitation 
  on the Internet................................................    29
The subcommittee's mandate.......................................    31
NCMEC report................................................31<greek-l>

                               (iii) deg.


             PREVENTING CHILD EXPLOITATION ON THE INTERNET

                              ----------                              


                        TUESDAY, MARCH 10, 1998

                           U.S. Senate,    
    Subcommittee on Commerce, Justice, and 
                                     State,
               the Judiciary, and Related Agencies,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:58 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Judd Gregg (chairman) presiding.
    Present: Senators Gregg, Hollings, and Mikulski.

                         DEPARTMENT OF JUSTICE

                    Federal Bureau of Investigation

STATEMENT OF HON. LOUIS J. FREEH, DIRECTOR


                    opening remarks of senator gregg


    Senator Gregg. We will start the hearing. This is the 
Subcommittee on Commerce, Justice, and State of the 
Appropriations Committee.
    The purpose of today's hearing is to continue a discussion 
with the Federal Bureau of Investigation [FBI] and the National 
Center for Missing and Exploited Children (national center) 
over the issue of the use of the Internet by people who are 
attempting to take advantage of our children, either through 
the promotion of child pornography, or through the actual 
attempt to solicit children for sexual activity.
    Approximately 1 year ago we had a hearing where the 
Director was kind enough to come forward and show us some of 
the initiatives which the Bureau has undertaken in the area of 
trying to protect children on the Internet from predators.
    We congratulate the FBI for their initiatives in this area, 
specifically the Innocent Images initiative, which essentially 
is a sting operation, which was initiated at the direction of 
the Director, and which this committee strongly supports.
    As a result of that hearing, and some of the very moving 
and disturbing testimony that we heard from parents of children 
who had been taken advantage of as the result of their use of 
the Internet, this committee initiated a significant funding 
increase and promoted a number of undertakings which have been 
pursued both by the Bureau and by the national center.
    This hearing is to go over the question of what additional 
activity is needed and what additional funding may be needed.
    You know, I think we all understand that the Internet is an 
extraordinary tool, and a great opportunity for everyone in 
this country, but especially for our children to learn and to 
have access to information which otherwise would not be 
available, or which would involve a great deal of complication 
to get to.
    I know in my own household my kids are constantly using it 
for research on all sorts of complex issues that I do not 
understand; whether it is biology or mathematics. In some 
instances it is just learning about the world as it is.
    In addition, it is a great communication tool. The chat 
room concept gives kids the opportunity to talk to their 
friends and to people who they don't know, but can meet around 
the world, and hear other thoughts and ideas about what is 
happening.
    The Internet is a unique and special tool, and from my 
standpoint it's something that we should protect and expand and 
use aggressively, as a positive tool. But unfortunately there 
are those who have decided to use it inappropriately, and as I 
said yesterday at the announcement of the CyberTipline over at 
the national center, it used to be that you tell your children 
don't talk to strangers in the play yard; don't accept candy 
from a stranger outside the house. If you're walking down the 
street don't speak to somebody who comes up to you and asks you 
to do something.
    But today, unfortunately, the stranger isn't outside of the 
house. The stranger can be in the house, and he or she can be 
in the house through the Internet. So parents have to be 
extremely sensitive to what their children are doing when they 
are using the Internet, and there has to be an openness of 
discussion.
    The first line of defense from abuse of the Internet is, 
obviously, parental involvement, parental knowledge, and the 
education of children as to the threat. And in that area, I am 
sure we will hear from Director Allen of the national center as 
to his ideas, and specifically the fact that no child should 
ever give out his or her name or address over the Internet or 
he or she certainly should never agree to meet anyone as a 
result of Internet contact unless the parents are told first, 
and also that they are very sure of who the person is the child 
is communicating with.
    These are obvious things that we need to communicate more 
effectively about in order to make sure that the Internet is 
used effectively. Today we are going to hear from Director 
Freeh as to some of the initiatives that are going forward in 
the area of law enforcement relative to people who are 
promoting child pornography over the Internet and also in the 
area of trying to catch people who may use the Internet to try 
to solicit children for sexual activity.
    We look forward to an update here. This is an issue that 
this committee has been aggressively involved in, and the 
aggressiveness of this committee has been bipartisan. Certainly 
Senator Hollings, as the ranking member and past chairman and 
most knowledgeable person on this committee about its history 
and its prerogatives, has been an extremely strong force for 
supporting the funding initiatives in this area and making sure 
that the agencies which we have jurisdiction over aggressively 
pursue the question of trying to protect our children when 
using the Internet.
    I will yield now to the ranking member, Senator Hollings.


                     statement of senator hollings


    Senator Hollings. Thank you very, very much, Mr. Chairman. 
I once again commend you for continuing to lead us on this 
important score, and I think your comments bring into mind my 
main concern which I want Judge Freeh and Director Allen to 
address on how they may emphasize even more prevention.
    Now, I do not know how to control the Internet. Initially 
the Internet was designed so that you could not control it. I 
will never forget, way back in the early 1970's, when we were 
saying that if a bomb landed on the Pentagon and all the 
communications were knocked out, we wouldn't be able to handle 
everything.
    We took the various scientific research projects being 
considered at the university campuses around the country, and 
started interconnecting them in the Defense budget under DARPA. 
Actually, the Internet is a defense entity, and that is how we 
got started. We then said let the economy and the political 
system develop an alternative on its own that could not be 
destroyed in a single stroke.
    Now, you and I with a single stroke are trying to stop 
pornography on the Internet, and I do not know how to do it. I 
am trying. We can hear from the witnesses, from their 
experiences, on how we could make the violations more severe so 
as to deter violators. But on the other hand, Judge, I want to 
hear from your good experience, especially with a big family 
that continues to grow, how we ought to emphasize prevention.
    Thank you very much.
    Senator Gregg. Thank you. Senator Mikulski has also been a 
leader on all these issues that involve children; protecting 
children.


                     statement of senator mikulski


    Senator Mikulski. Thank you, Mr. Chairman, and my 
compliments to you. Mr. Chairman, it is with a great deal of 
pride that the national headquarters for the FBI's program to 
fight child pornography and child predators on the Internet is 
located in my own home State of Maryland.
    I have had the opportunity to visit our local FBI 
headquarters to see firsthand these demonstrations. They were 
shocking. I could not believe that what should be a tool to 
advance a child's education--should be an opportunity for 
learning, to take them to vistas all around the world and even 
beyond, through the NASA Internet--has now been created a 
virtual playground in which the predators are very, very real.
    The $10 million that we got in last year's appropriation 
has worked. We have 60 agents working in Baltimore. They are 
out there working to make sure we protect our children from 
these predators. We know that nationwide there have been over 
329 arrests, and actually already 184 convictions. We look 
forward to hearing from Director Freeh about how we could 
further enhance this.
    We want to make sure that the Internet and the ability to 
own a computer in your home, or have access to the Internet in 
a public library, is a tool for learning about the world, and 
it is not a tool for people to come in, have a virtual 
playground, or to use chat rooms to seduce little children.
    And I want to compliment you on your leadership. And, 
Director Freeh, I just want you to know, the agents that I 
visited in Baltimore, their sophistication with technology, and 
their commitment to protecting children was so outstanding it 
was inspirational, and even inspired me to want to fight extra 
hard for the resources you have.
    Senator Gregg. Thank you, Senator. Director Freeh, we look 
forward to hearing your testimony.


                  summary statement of director freeh


    Mr. Freeh. Thank you, Mr. Chairman, and Senators Hollings 
and Mikulski. Thank you for your support and your comments.
    We are very pleased to be here again to talk about these 
very serious issues, specifically as they affect law 
enforcement and our ability to protect our most precious 
resource, our children.
    It is significant that this is a second hearing. Last 
April, as you noted, Mr. Chairman, under your leadership and 
Senator Hollings' leadership, for the first time, at least in 
my tenure, a committee of the Congress focused specifically on 
child pornography and sexual exploitation of children from a 
Federal law enforcement point of view. And that concern, that 
support which has resonated not only in the appropriations of 
1998, but the continuing support and inquiry by this committee 
is just outstanding, not only from our point of view, but also 
on behalf of the other Federal services, particularly the U.S. 
Customs Service, and the State and local departments who are 
benefiting from the training, and from the protocols developed 
in the Innocent Images cases.
    Yesterday, as you know, at the announcement of the 
CyberTipline effort, which is the direct result of this 
committee's support, we heard from a detective from a small 
police department in New Hampshire, who, on his own initiative 
and with the expertise he has developed, has generated over 60 
leads.
    These are not FBI leads. These are State and local cases 
with respect to people committing crimes against children using 
the Internet.
    As these techniques and this support percolates down to the 
State and local departments, we will enormously increase the 
potential for this protection. It is nothing that the FBI could 
do by itself or the Customs Service. As you note, Senator 
Hollings, a lot of it has to do with prevention and education, 
which is why we note with great interest the legislation that 
you recently introduced which goes to that very point of 
education and prevention in the schools. But this is the 
beginning of an initiative which I think will have outstanding 
results around the country, and it was initiated in this 
committee, and I want to thank all the members, and you, Mr. 
Chairman, in particular.
    With respect to the commitment which was made by this 
committee, and followed up by myself and the FBI, I believe 
that we will have more significant results to report in 
addition to the ones that I will review very briefly here this 
morning.


                              cybertipline


    The CyberTipline is one other example of a State and 
private partnership. What is very significant about the 
CyberTipline is that it is privately supported as well as 
publicly funded and that the center, under the very competent 
leadership and very ingenious initiatives of Ernie Allen, who 
is going to testify here this morning, has been able to take 
that particular idea and turn it into a practical tool and 
shield for protecting our children.


                       innocent images initiative


    With respect to the $10 million appropriation which we 
received last year, that, as you noted, Senator Mikulski, added 
60 positions, including 25 special agents, to enhance the 
Innocent Images initiative, which is a nationwide investigative 
effort headquartered in our Baltimore field office, but now 
expanding.
    We have an initiative established in Los Angeles, and with 
State and local training, it is now going to filter down to a 
level which will greatly expand its impact.
    Baltimore received 40 of those 60 new positions, including 
13 agents and 12 intelligence research analysts. That has given 
us a threefold capability to what it was prior to those 
resources. We are creating a second squad of FBI agents and 
State and local task force participants to expand the scope of 
our current online undercover operation and to provide 24 hour 
support to Innocent Images cases from around the country, which 
will give us a capacity that we have not, heretofore, enjoyed.
    Ninety-five percent of the Innocent Images cases which are 
initiated in Baltimore have to do with subjects who reside in 
other States. So this is, indeed, a national effort which has 
been headquartered very successfully in our Baltimore division.
    The Baltimore agents who are assigned to Innocent Images 
will also use their expertise to train State and local law 
enforcement officers and prosecutors, including those trained 
through the national center.
    Since last April, the FBI Innocent Images staff have made 
54 presentations to approximately 2,100 State and local 
enforcement officers and prosecutors around the country. This 
is a continuing training effort, and the protocols they receive 
during that training, will enable them to go out and institute 
similar operations in a coordinated way. We are very dedicated 
to making sure these efforts are coordinated as best we can.
    We are also improving the case management system in the 
Innocent Images protocols to ensure that we can store and 
retrieve quickly all the relevant data. We are placing four 
agents and one intelligence research specialist in our Los 
Angeles field office, where they will be dedicated to following 
up on cases referred by the Baltimore office, as well as 
initiating new Innocent Images and online child pornography 
investigations.
    With respect to forensic services, the additional Innocent 
Images squad in Baltimore will generate increased workload for 
our FBI laboratory. Consequently, improving our laboratory 
capabilities to handle these additional cases, forensically, is 
a top priority. So we are adding five special agents and one 
professional examiner for those forensic examinations of 
computer-related evidence from Innocent Images cases.


                 child abduction and serial killer unit


    With respect to the child abduction and serial killer unit, 
which as you know is in Quantico, which I established in 1994, 
we will add two agents and one intelligence research specialist 
to that unit to ensure the timely and effective response to 
requests for assistance in missing children and sexual 
exploitation cases, particularly those involving Internet and 
online services.
    That unit, I am very proud to say, has been extremely 
active since it became operational in 1995. In addition to the 
profiling of services, which we provide regularly to State and 
local departments, we also, upon request, deploy agents, 
analysts, and forensic examiners from that unit and other 
sources to go out into the field, particularly when a small 
police department is faced with a child abduction beyond their 
resource needs.
    We are also assigning, as I mentioned yesterday, one full-
time special agent to the national center to help improve our 
liaison and facilitate what will be more complaints and tips, 
particularly as a result of the CyberTipline.


                                training


    With respect to training, we are conducting, based on the 
1998 resources, five regional, online child pornography and 
child sexual exploitation conferences. The first conference was 
held recently in Atlanta, attended by 20 FBI agents and 200 
State and local officers from seven Southeastern States.
    We have conferences scheduled later this year in Dallas, 
Los Angeles, Chicago, and Newark. That is the multiplier effect 
that I believe we will have. You will see many more of these 
cases and initiatives on a State and local level, which is, 
indeed, very significant.
    Later this year we are going to convene a national level 
symposium on Internet and online child pornography cases, where 
in conjunction with State and local partners and prosecutors, 
we will develop what we believe to be better case strategies 
and better protocols, and review the technology available to 
work on these important cases.


                            public awareness


    Increasing public awareness, as Mr. Allen noted yesterday, 
is perhaps one of the most important aspects of this entire 
initiative. The education and the prevention aspect is an issue 
which goes, of course, to the schools and the parents, but also 
has a law enforcement component.
    For instance, we are following up on a suggestion which you 
made last year, Mr. Chairman, and Senator Hollings, with 
respect to including in our FBI tour the notion of awareness 
with respect to online pornography and child exploitation.
    We are in the process now of establishing on that tour, 
which is seen by 500,000 people per year, videos, perhaps 
interactive kiosks, and displays with respect to the whole 
issue of child exploitation and vulnerability, and using that 
as another forum for education.


                         innocent images cases


    With respect to the Innocent Images cases, as Senator 
Mikulski noted, we have been very, very successful in the 
investigation and prosecution of those cases. We have over 684 
active, pending cases at this time and 184 convictions, as the 
Senator noted.
    Significantly, 70 of those cases are what we call traveler 
cases. These are the most serious cases where someone contacts 
a child or a minor over the Internet and seeks to meet them for 
illicit sexual purposes potentially leading to crimes of 
violence and even death. These cases are identified in our top 
priority category of travelers. These are the cases that we 
react most immediately to, with all the resources at our 
disposal.
    In addition, what is also significant, and based in part on 
the resources which are now being utilized from your 1998 
appropriation, we have increased the number of search warrants 
by 62 percent. The number of indictments have increased this 
last year by 50 percent, arrests by 57 percent, and convictions 
by 45 percent.
    I would also note that in addition to the national efforts, 
these cases have international aspects. Currently, 
approximately 21 of these cases are being worked in part by 
nine of our overseas Legat offices, which this committee has 
also strongly supported in terms of establishment and 
expansion.
    The Internet has no boundaries. Subjects from countries, 
literally around the world, can visit into someone's home for 
the purposes of committing one of these crimes. So the 
capability needs to be beyond our borders, since the Internet 
has no borders.
    There are challenges, as we mentioned last year as well as 
last week with respect to pursuing these cases. The encryption 
issue is an issue that we need to resolve in some rational as 
well as effective way. We do have subjects using encryption to 
commit crimes against children, particularly crimes on the 
Internet, and that is a continuing source of concern to us that 
has broad law enforcement implications beyond these cases.


                         national coordination


    With respect to national coordination, we do seek, as I 
know this committee wishes us to, the ability to coordinate as 
best we can the various and now proliferating efforts not only 
by Federal law enforcement authorities, but also by State and 
local authorities, to avoid a situation where two undercover 
operatives on the Internet, unknown to each other at the time 
are working against each other, both representing law 
enforcement agencies.
    We want to use whatever means and liaison available as well 
as the conferences which this appropriation will support to see 
if we can establish some basic protocols or guidelines so we 
can avoid the situation where we are basically wasting 
resources. I do not think that has happened yet as far as I 
know, and we are going to ensure that it does not happen in the 
days to come.


                  regional state and local task forces


    The Office of Juvenile Justice and Delinquency Prevention, 
based on this committee's funding, is setting up eight regional 
State and local task forces which will work very closely with 
the FBI, as well as with the national center, with respect to 
the pursuit of these cases.


                              dna profiles


    In the area of DNA profiles, we are actively pursuing the 
forensic ability to have a legal but effective DNA data base, 
with respect to people convicted of sexual, predatory crimes. 
The average child molester, for instance, we know from studies 
and statistics, attacks approximately 70 victims throughout his 
lifetime.
    With respect to many of those crimes, DNA profiles and DNA 
data bases become a very effective forensic tool in terms of 
identification, and also prevention. If we are being asked to 
check the employees at a day care center, we need to have 
access to a data base which serves that very important purpose.
    The FBI continues to work with the States to establish the 
CODIS network. CODIS is the DNA identification network. We now 
have connections with 86 different crime labs in 36 States, 
including the District of Columbia, with respect to the ability 
to exchange and compare DNA profiles electronically.
    At this time, however, there is no comparable effort to 
collect and maintain DNA samples from individuals convicted 
federally for sex crimes, and that is an area where I think, 
both with respect to authorization and certainly appropriation, 
a good judgment might be had with respect to increasing that 
forensic ability.


                      private industry assistance


    With respect to private industry assistance, again during 
the past year, as we noted yesterday and as several of the 
presenters noted, we have had very good dialog as well as 
cooperation with some of the Internet service providers with 
respect to conducting our investigations, receiving assistance 
from them to obtain evidence, but also to receive from them 
suggestions as well as abilities to help educate and work in 
the prevention area, which, of course, is key.
    We think that many things need to be done and can be done. 
For instance, manufacturers of software products, particularly 
those products which are used to access the Internet, could 
easily, in our view, include in their products some of the 
safety publications which are currently available, and which 
are very effective in getting the message across, particularly 
to children and teens.
    We would encourage the Internet provider industry to 
maintain subscriber and call information for a fixed period of 
time. They now discard it very briefly, unlike the telephone 
companies. Those are records which are very critical in 
identifying and even tracing some of the Innocent Images-type 
cases and leads. That would be a very helpful thing, and we 
certainly hope that it could be done, even on a voluntary 
basis.
    Retaining caller ID by the Internet service providers would 
be another, hopefully voluntary, measure that would help us, 
and we are in discussions with providers to see if we can 
receive that kind of assistance.


            crimes against children program accomplishments


    In general, and in conclusion with respect to our FBI 
Crimes Against Children Program, we are very proud of this 
program. We have worked very hard, and I want to commend the 
FBI special agents and the support employees who have really 
dedicated themselves to making this program work, which has 
been recently established, but in our view, is very, very 
effective.
    Some of the measures that we have taken, which I know are 
known to the committee--in February of last year we added, as 
you know, a new dimension to the NCIC which allows law 
enforcement agencies to flag entries for us where there is some 
reasonable indication that a child is missing under suspicious 
circumstances, and that that particular child might be in a 
life threatening situation. We have a system established where 
those NCIC flags notify the national center, and also our child 
abduction and serial killer unit once they are entered. We have 
established the interim National Sex Offender Registry, which 
uses the NCIC III index. To date, 23 States are participating 
in that, with 30,778 records, which are flagged individuals as 
sexual offenders. In July 1999, when the NCIC 2000 comes on 
line, this will be a permanent part of that file.
    Last May, I instructed each of our officers to designate 
two special agents per office, in each of our 56 offices, to 
serve as Crimes Against Children coordinators within their 
particular field office, and to serve as points of contact for 
the State and local agencies.
    One of the efforts that we have pursued, and which this 
particular liaison capacity supports, is a manual which I will 
make available to the committee. It is called the ``Child 
Abduction Response Plan,'' which was developed by our child 
abduction and serial killer unit. This particular manual is now 
being distributed to approximately 17,000 police departments in 
the United States. It is a how to book: what to do, what not to 
do, particularly in the first few hours of a child abduction 
case.
    For the majority of police departments in the country which 
have under a dozen or so sworn officers, this gives them not 
only some protocols and guidance, but also the means to contact 
us immediately where we can be of assistance.
    We are working with the International Association of Chiefs 
of Police to distribute that, and then follow it up with the 
liaison that these units, with your additional resources, will 
provide.
    We have also established in the FBI Criminal Investigative 
Division an office dedicated to crimes against children, not 
just sexual exploitation and pornography on the Internet, but 
kidnapping cases, violent crimes against children all over the 
country, particularly on Indian reservations, where that rate 
is extremely high, parental kidnapping cases--all of the 
programs and statutes which we enforce which in any way relate 
to children.
    This organizes for the first time in the FBI an overall 
supervision for our programs. As I noted last week, we did 
include in our 1999 budget increases with respect to law 
enforcement resources on Indian country, where the violent 
crimes, particularly the crimes against children, are 
phenomenally high.

                           prepared statement

    Again, I want to express my gratitude to this committee for 
its support. As a Director, but also as a father of six 
children, I cannot think of a more important investment with 
respect to law enforcement. They are our most precious 
resource. You have my commitment that we will use these 
resources wisely, and we will work as hard as we can to prevent 
harm to all these children.
    Thank you very much.
    [The statement follows:]
                  Prepared Statement of Louis J. Freeh
    Good morning, Chairman Gregg, Senator Hollings, and members of the 
Subcommittee. I am very pleased to appear before you today to discuss 
the problems of child pornography on the Internet and the sexual 
exploitation of children.
    I would like to acknowledge the strong support of the Subcommittee 
for the FBI and other federal, state, and local law enforcement 
organizations and agencies working to protect children from computer 
sex offenders. Last April, this Subcommittee convened the first 
Congressional hearing during my tenure as Director that focused solely 
on this important issue. As I told the Subcommittee at that time, our 
children are our nation's most valuable resource. They represent the 
bright future of our country and hold our hopes for a better Nation. 
They are also among the most vulnerable members of society.
    Your hearing last year was instrumental in raising public awareness 
to the seriousness of the problem of child pornography on the Internet. 
Your hearing also raised the recognition of this problem among law 
enforcement officers and prosecutors. Most importantly, you followed up 
your concern and commitment with action.
    As a result of your efforts through the 1998 Justice Appropriations 
Act, the FBI, our state and local partners, and the National Center for 
Missing and Exploited Children, and others are taking positive actions 
to make our children's safety and future more secure by reducing their 
vulnerability to Sexual Predators using the Internet and commercial on-
line services. Through your recognition of this issue, funding is 
available this year to improve the FBI's efforts to combat child 
pornography on the Internet, to enhance training and other related 
programs at the National Center for Missing and Exploited Children, and 
to establish State and local law enforcement child sexual exploitation 
cyber-squads. This Subcommittee is making a significant difference in 
providing law enforcement with the tools and capabilities they need to 
respond to this problem. On behalf of law enforcement, I thank you.
    Yesterday, I had the honor to join Senators Gregg and Hollings and 
Ernie Allen, the President of the National Center, at the dedication of 
the Cyber Tipline. The Cyber Tipline is one example of the type of 
joint public-private sector partnerships that are mutually beneficial 
to law enforcement and the public, especially to our children. I hope 
that yesterday's events will bring to the public's attention the 
availability of the Tipline and that its use will assist in preventing 
innocent and unsuspecting children from being exploited and harmed.
                implementation of 1998 fbi enhancements
    I would like to start by bringing the Subcommittee up to date on 
how the FBI is using the additional staffing and funding provided for 
child pornography investigations that was included in the 1998 Justice 
Appropriations Act. The Act provided $10 million for enhancing our 
ongoing ``Innocent Images'' initiative which is a nationwide 
investigation coordinated in the FBI's Baltimore, Maryland, field 
office. This funding allows for 60 new positions, including 25 agents. 
As we allocated these additional resources, we considered and balanced 
the full range of requirements needed for the ``Innocent Images'' 
initiative, including additional investigators for Baltimore and other 
key locations, analysts, laboratory examiners and services, training 
and outreach, and case management automation. I believe the plan that 
we are implementing allows us to have the most impact with the 
additional resources the subcommittee provided us.
    Baltimore.--Most of the new positions--40 total, including 13 
agents and 12 Intelligence Research Analysts--are being assigned to our 
Baltimore Field Office. At Baltimore, we are creating a second 
``Innocent Images'' squad to expand the scope of our current on-line 
undercover operation. Baltimore will also be able to provide 24-hour 
support to ``Innocent Images'' cases that involve suspects located in 
other FBI field offices. Currently, 95 percent of the ``Innocent 
Images'' cases generated by the Baltimore Field Office involve suspects 
who live in states other than Maryland.
    The ``Innocent Images'' agents assigned to Baltimore will also use 
their expertise to provide training programs for State and local law 
enforcement and prosecutors, including those trained through the 
National Center for Missing and Exploited Children. Two special agents 
from the Baltimore Division's ``Innocent Images'' staff will be 
assigned as instructors to teach law enforcement officers on-line child 
pornography/child sexual exploitation investigations. Since last April, 
FBI ``Innocent Images'' staff have made 54 presentations to 
approximately 2,100 State and local law enforcement officers and 
prosecutors.
    We are also improving the ``Innocent Images'' case management 
system that supports on-line sessions conducted by undercover agents 
and which stores case and federal grand jury subpoena information. With 
the additional cases that will be generated by the increased number of 
agents added to the ``Innocent Images'' squads, an updated system is 
needed.
    Los Angeles.--The FBI's Los Angeles Field Office plays a 
significant role in support of the ``Innocent Images'' initiative, 
including the conducting of on-line undercover sessions. We are placing 
4 agents and 1 intelligence research specialist in the Los Angeles 
Field Office where they will be dedicated to supporting the ``Innocent 
Images'' initiative. These agents will allow the Los Angeles Field 
Office to provide more timely follow up investigations regarding 
suspects identified and referred by the Baltimore Field Office, as well 
as initiate new Internet and on-line service child pornography 
investigations. Investigations by the Los Angeles Field Office are 
being fully coordinated with the national ``Innocent Images'' task 
force in Baltimore.
    Forensic services.--Child pornography investigations and 
prosecutions depend upon the identification and timely analysis of 
evidence from seized computers and media used to produce, store, and 
transmit illegal images and pictures. Individuals involved in the 
distribution and exchange of on-line child pornography and the 
recruitment of children for illicit sexual purposes are among the most 
sophisticated computer users the FBI is encountering. The additional 
cases that will be generated by the new squad being established in 
Baltimore will also increase the forensic workload of the FBI 
Laboratory. Consequently, improving FBI Laboratory capabilities to 
respond to the growing number of these cases is a high priority.
    We are adding 6 positions, including 5 agents, to the FBI 
Laboratory to increase the number of examiners performing forensic 
examinations of computer-related evidence from ``Innocent Images'' 
cases. These agents will also travel to other field offices to assist 
in the execution of search warrants generated from cases developed by 
the ``Innocent Images'' squads.
    Pocatello Information Technology Center.--We are also adding 2 
intelligence research specialists to the FBI Information Technology 
Center (ITC) located in Pocatello, Idaho. The Pocatello ITC provides a 
variety of overall case support services for ``Innocent Images'' 
investigations, including searches of commercial databases to locate 
and trace suspects and fugitives. During a court authorized wire 
interception in an on-line child pornography investigation, the very 
first of its kind, analysts at the Pocatello ITC directly assisted our 
investigators in the administration of this electronic surveillance.
    Child Abduction and Serial Killer Unit.--The FBI's Child Abduction 
and Serial Killer Unit provides critical behavioral profiling to FBI 
field offices, other federal agencies, and State and local law 
enforcement agencies working missing children cases and serial crimes, 
including cases involving Sexual Predators. Beginning in September 
1997, the FBI began distribution of a ``Child Abduction Response Plan'' 
to over 17,000 federal, State, and local agencies to provide 
suggestions and guidance, based upon our experience, on dealing with 
these types of tragic incidents. This plan was prepared by the Child 
Abduction and Serial Killer Unit.
    We are adding 2 additional agents and 1 Intelligence Research 
Specialist to ensure this Unit continues to provide timely and 
effective response to requests from law enforcement for assistance in 
missing children and child exploitation cases, especially those in 
which Sexual Predators use the Internet or on-line services to entice 
children to meet for illicit sexual purposes.
    Liaison with the National Center for Missing and Exploited 
Children.--The FBI is in the process of assigning a Special Agent full-
time to the National Center for Missing and Exploited Children to 
improve our liaison with the Center and to facilitate the timely 
referral of child sexual exploitation and missing children complaints 
and tips to FBI field offices.
    Training.--Just one and one half weeks ago, the FBI conducted the 
first of five regional On-line Child Pornography/Child Sexual 
Exploitation conferences in Atlanta, Georgia. Attending that conference 
were 30 FBI agents and 200 State and local law enforcement officers and 
officials from 7 Southeastern states: Georgia, Florida, South Carolina, 
North Carolina, Tennessee, Alabama, and Mississippi. Other regional 
conferences will be held this year in Dallas, Texas; Los Angeles, 
California; Chicago, Illinois; and Newark, New Jersey. These 
conferences are possible due to the additional funding provided in 
1998.
    Later this year, we are planning to convene a national-level 
symposium on Internet and on-line child pornography and child 
exploitation for all FBI field offices. Through this symposium, we hope 
to bring together FBI Special Agents who work on-line child 
pornography/child sexual exploitation investigations, prosecutors, 
Internet and on-line service providers, and others to exchange ideas 
and to build bridges between the various groups that will have a 
positive impact on reducing the vulnerability of children to these 
types of crimes.
    Training law enforcement, prosecutors, and others is an important 
element of our effort to combat child pornography and child sexual 
exploitation on the Internet. We will continue our training efforts in 
1999.
    Increasing Public Awareness.--One of the most effective ways to 
prevent children from becoming victims of on-line Sexual Predators is 
to educate them and their parents to follow safe Internet and on-line 
practices. Too often, unsuspecting children believe they are talking to 
a peer with similar interests and hobbies when, in fact, they are being 
recruited by a Sexual Predator who is exploiting the anonymity allowed 
by the Internet to hide his true intentions.
    Thanks to your suggestion, Mr. Chairman, and that of Senator 
Hollings, we are incorporating child Awareness of On-line Child 
exploitation into the FBI Headquarters tour. Annually, more than 
500,000 people take the FBI tour with the majority being school age 
children.
    Among the ideas we are considering are short videos highlighting 
the issues of child abduction and child safety on the Internet that 
could be shown on televisions installed in the general waiting areas 
for tours. We are also considering locating two or three kiosks 
containing interactive computers along the tour route that would offer 
two different information programs, one for adults and one for 
children, relating to child safety on the Internet. Finally, we are 
considering a Crimes Against Children display that would be constructed 
and located outside the Firearms Range waiting area. The National 
Center for Missing and Exploited Children is working with us in 
developing these ideas and content.
                            innocent images
    The FBI initiated its ``Innocent Images'' investigation in 1995 as 
an outgrowth of the investigation into the disappearance of ten year 
old George Stanley Burdynski, Jr., in Prince George's County, Maryland. 
Investigation into the activities of two suspects determined that 
adults were routinely using computers to transmit images of minors 
showing frontal nudity or sexually explicit conduct, and to lure minors 
into illicit sexual activities.
    ``Innocent Images'' focuses on individuals who indicate a 
willingness to travel for the purposes of engaging in sexual activity 
with a child; individuals who produce and/or distribute child 
pornography through the Internet and on-line services; and, individuals 
who post illegal images onto the Internet and on-line services. The FBI 
has investigated more than 70 cases involving pedophiles traveling 
interstate to meet minors for the purposes of engaging in illicit 
sexual relationships.
    FBI Agents and other federal, State, and local investigators 
participating on the ``Innocent Images'' task force go on-line in an 
undercover capacity, posing as either young children or as sexual 
predators, to identify those individuals who are victimizing children. 
The coordinated effort has generated significant results: since 1995, 
the ``Innocent Images'' investigation has generated 328 search 
warrants, 62 consent searches, 162 indictments, 69 informations, 161 
arrests, and 184 convictions.
    I am particularly pleased to report that since March of 1997, the 
number of search warrants executed increased 62 percent; the number of 
indictments obtained increased 50 percent; the number of arrests 
increased 57 percent; and the number of convictions increased 45 
percent.
    As I mentioned earlier, we have started on-line ``Innocent Images'' 
investigations in our Los Angeles field office. We are also considering 
the need for on-line ``Innocent Images'' efforts in other field offices 
based upon workload and the identification of specialized user 
populations involved in on-line child pornography and related sexual 
offenses. All of these efforts will be coordinated with and through our 
Baltimore Field Office.
    The ``Innocent Images'' initiative has expanded its investigative 
scope to include investigations involving news groups, Internet Relay 
Chat (IRC) and fileservers (also known as fserves).
              challenges for combating child exploitation
    I would like to comment briefly on several challenges that face not 
only the FBI, but all of law enforcement, as we move ahead in our 
efforts to combat Internet and on-line child pornography and sexual 
exploitation.
    Encryption.--When I testified last week before the Subcommittee on 
the FBI's 1999 budget request, I outlined for the Subcommittee a number 
of challenges facing the FBI as it moves toward the 21st century. One 
of these challenges is the growing use of encryption by criminals to 
conceal their illegal activities. The ``Innocent Images'' initiative 
has uncovered sexual Predators who use encryption in their 
communication with each other and in the storage of their child 
pornography computer files. This encryption is extremely difficult, and 
often impossible, to defeat.
    It is essential that law enforcement agencies at all levels of 
government maintain the ability, through court order, to access 
encrypted communications and data relating to illegal activity.
    National Coordination.--The FBI has designated its Baltimore Field 
Office as the national coordinator for its ``Innocent Images'' 
initiative. Investigations of ``Innocent Images'' referrals conducted 
by other FBI Field Offices are coordinated through Baltimore.
    Numerous other federal, State, and local law enforcement agencies 
are initiating on-line undercover child exploitation investigations, 
some as part of task forces and others on an individual agency basis. 
As more law enforcement agencies begin to use this investigative 
technique, the likelihood that one agency will begin investigating 
another agency's undercover operation will increase. This is an obvious 
waste of very finite resources. On-line child exploitation 
investigations often cross jurisdictional lines and, in some instances, 
even national boundaries. Investigations that begin in one area may 
branch off to involve locations throughout the country and have links 
to other ongoing investigations. These types of cases must be 
coordinated among the various law enforcement agencies having 
jurisdiction. I believe the FBI is in a position to provide valuable 
and effective leadership to spearhead this national effort.
    The 1998 Justice Appropriations Act provides $2.4 million to the 
Office of Justice Programs for grants to establish State and local law 
enforcement cyber-squads. This subcommittee also instructed that these 
cyber-squads follow the investigative protocols developed by the 
Department of Justice in the ``Innocent Images'' investigation. The 
Office of Juvenile Justice and Delinquency Prevention, the Child 
Exploitation and Obscenity Section of the Criminal Division, the FBI, 
and the National Center for Missing and Exploited Children are working 
closely together to develop a plan for the formation of eight regional 
State and local task forces using these funds.
    I would like to see our ``Innocent Images'' initiative serve as a 
national clearinghouse, with links to a network of regional task forces 
staffed by federal, State, and local investigators. Such a 
clearinghouse and network would enhance support for, and coordination 
of, on-line child exploitation investigations and facilitate the 
sharing of intelligence information gathered through undercover 
sessions and cases.
    DNA Profiles.--Sexual Predators have predictable behavior traits. 
Clinical research studies have found that the average child molester 
will have more than 70 victims throughout his lifetime. DNA profiles 
are one law enforcement tool that can be effective in quickly 
identifying suspects.
    The FBI continues to work with States to establish the Combined DNA 
Information System (CODIS) that will allow State and local crime 
laboratories to exchange and compare DNA profiles electronically, 
thereby linking serial violent crimes and to identify suspects by 
matching DNA evidence to offender profiles. CODIS is operational in 86 
crime laboratories in 36 States and the District of Columbia.
    Currently, 48 of 50 States and all territories and possessions have 
enacted laws allowing the collection of DNA samples from convicted sex 
offenders and others convicted of violent crimes. We are working with 
the two states that do not have laws and expect those States to enact 
appropriate laws this year. At this time, there is no comparable effort 
to collect and maintain DNA samples from individuals convicted 
federally for sex crimes and other violent offenses. As a result of the 
``Innocent Images'' initiative and other cases, more and more 
individuals are being convicted in Federal Court for sex offenses 
involving minors.
    Steps need to be taken to close the gap between State and federal 
DNA profiling efforts so that a true nationwide database of DNA 
profiles for all convicted sex offenders is available.
    Sex Offender Registry.--The permanent national sex offender 
registry is scheduled to be implemented In July 1999 when the National 
Crime Information Center (NCIC) 2000 system becomes operational. This 
file will have the capability to retain an offender's current and 
previous registered addresses, dates of registration and conviction(s), 
photograph and fingerprints. Currently, an interim National Sex 
Offender Registry is operational which utilizes the FBI's Interstate 
Identification Index and the National Law Enforcement 
Telecommunications System. The initiative became operational in 
February 1997. As of February 12, 1998, 23 States are participating in 
the Registry with 30,778 records flagged as sex offenders.
    Industry actions and assistance.--Over the past year, we have seen 
positive steps by the software and Internet Service Provider industries 
to reduce the availability of pornography to minors. Some Internet 
Service Providers are exploring different methods for protecting our 
children; to include blocking access to chat rooms and Internet news 
groups--the places where Sexual Predators target and recruit minors. 
Some site providers are using proof of age and similar shielding 
systems to keep underage children from accessing sites containing 
adult-oriented materials.
    Yet, more can and should be done to keep sexual predators from 
being able to reach our children through the Internet and commercial 
services. I urge the manufacturers of software products, those used for 
connecting to the Internet and also used in modems and computers, to 
include with their products a copy of the Internet safety publications 
prepared by either the FBI, the National Center for Missing and 
Exploited Children, the Department of Education or a pamphlet of their 
own design. This simple action would help raise the awareness of 
parents and provide children with safety tips and practices to use 
while enjoying the Internet.
    Another problem we encounter is access to subscriber information. 
When we identify an individual's screen name--not their subscriber 
name--through an on-line session, we must secure a Federal Grand Jury 
subpoena and then go to the Internet Service Provider to obtain 
subscriber and account information for that particular screen name. 
Oftentimes, Sexual Predators and others use multiple screen names or 
change screen names on a daily basis. Some Internet Service Providers 
retain screen name identifiers for such short periods of time--in some 
instances less than two days--that when law enforcement presents a 
subpoena, the Internet Service Provider is not able to retrieve from 
its archives the requested subscriber and account information.
    The telephone industry is required by Federal Communications 
Commission regulation to maintain subscriber and call information for a 
fixed period of time. It would be beneficial for law enforcement if 
Internet Service Providers adopt a similar approach for retaining 
subscriber information and records for screen names and associated 
Internet Working Protocol numbers, or ``IP addresses.'' Such 
information, when provided to law enforcement upon service of a 
subpoena, is critical to the timely identification of persons sending 
child pornography or trying to recruit a child for illicit sexual 
purposes.
    Where possible, it would be beneficial for Internet service 
providers to capture and retain Caller ID data on persons accessing ISP 
lines. The capturing of Caller ID data will greatly assist law 
enforcement in child pornography/child sexual exploitation 
investigations.
                        crimes against children
    Our efforts to combat child pornography on the Internet and 
commercial service providers is one element of the FBI's comprehensive 
Crimes Against Children Initiative. The FBI's overall goal for its 
Crimes Against Children initiative is to provide a quick and effective 
response to all reported incidents. Through a timely response, we 
believe the FBI can, in conjunction with its law enforcement partners, 
increase the number of incidents in which the victimization of children 
is stopped and increase the likelihood that abducted or missing 
children are safely recovered.
    In each of our field offices, we are reaching out to our State and 
local law enforcement partners to encourage them to notify the FBI 
within that critical first hour of a reported child abduction or 
missing child. Once notified, our goal is to rapidly deploy those 
resources necessary to support or conduct an investigation.
    I directed that two things be done to help ensure a timely 
notification is made in these cases. On February 2, 1997, the FBI added 
a new dimension to the National Crime Information Center (NCIC) that 
allows law enforcement agencies to ``flag'' entries when there is a 
reasonable indication that a child is missing under suspicious 
circumstances or that the child is believed to be in a life-threatening 
situation. NCIC then notifies the National Center for Missing and 
Exploited Children and the FBI's Child Abduction and Serial Killer 
Unit. Special thanks go to Senator McConnell for his pioneering work 
that led to this new program.
    Shortly after last year's hearing, in May 1997, I instructed each 
Special Agent in Charge to designate two FBI Agents to serve as Crimes 
Against Children Coordinators within their field office territories and 
to serve as field office points of contact for notifications.
    No single law enforcement agency is equipped to handle the broad 
spectrum of issues that accompanies crimes against children. Working 
together, we can leverage our individual capabilities and expertise 
into an effective and comprehensive resource team. I have instructed 
each FBI field office to begin establishing multi-agency, multi-
disciplinary resource teams consisting of federal, State and local law 
enforcement, prosecutors, victim/witness specialists, and health and 
social service professionals. These resource teams will facilitate 
interagency sharing of intelligence and information and enable 
effective investigation and prosecution of cases that transcend 
jurisdictional and geographical boundaries.
    The FBI's 1999 budget includes a request for 81 positions, 
including 30 agents and 31 victim/witness coordinators, and $8,009,000 
to improve the delivery of law enforcement services to Indian Country. 
Between 1994 and 1997, 83 percent of the crimes on Indian reservations 
cases opened by the FBI involved either crimes of violence (47 percent) 
or the sexual or physical abuse of a minor child (36 percent). I urge 
your support for these additional resources that will allow us to 
investigate crimes against children living in Indian Country.
                               conclusion
    Mr. Chairman, I would like to again express my gratitude for the 
Subcommittee's strong support and confidence in the FBI. Both you and 
Senator Hollings can take pride in the leadership exerted by the 
Subcommittee in the area of protecting our children from sexual 
offenders and pedophiles. I believe your approach of balancing targeted 
increases in FBI investigative resources and capabilities in select 
areas with an emphasis on training for State and local law enforcement 
encourages partnerships and cooperation that are the keys to an 
effective response to the problem of Internet and on-line child 
pornography and child exploitation by sexual offenders and pedophiles.
    This concludes my prepared remarks. I would like to respond to any 
questions that you may have.

              Extent of Internet child pornography problem

    Senator Gregg. Thank you, Director, for that comprehensive 
explanation of your efforts which are also extensive and well 
thought out.
    I guess I would like to get a little perspective on how big 
the problem is. I would be interested, if you know, or maybe--I 
notice Agent Hooper is here from your Baltimore office, who 
gave us the presentation--she might know.
    When you go online in one of these sting operations under 
Innocent Images, how long does it take before you get a 
potential contact, either an illicit request or a communication 
involving child pornography? How extensive is the problem as 
you see it?
    Mr. Freeh. I am going to let Agent Hooper speak in a 
moment, because she is the expert here. But within minutes, 
literally, of an agent pretending to be a 13- or 14-year-old 
girl going into a designated chat room, the screen literally 
lights up with respect to questions and solicitations, and many 
of those are pursued in terms of our criminal cases.
    But if I could ask the real expert to come up.
    Senator Gregg. For the record, this is Supervisory Special 
Agent Hooper. Agent Linda Hooper is the supervisor of the 
Innocent and Images squad in the Baltimore division.
    Ms. Hooper. Generally, when the undercover agent goes 
online, the contact is almost instantaneous. And it is from 
numerous individuals. Some of the online services only allow 23 
individuals in a particular chat room at one time, and we have 
been engaged by 22 of the 23 individuals--us being the 23d--all 
at once.
    Senator Gregg. So it's a pretty extensive problem.
    Ms. Hooper. Yes.
    Senator Gregg. And it is something that parents should be 
very worried about.
    Ms. Hooper. Yes, sir.
    Senator Gregg. Of course, the first line of defense is the 
parent educating the child as to the proper response. What 
would be your feeling about what the proper response is? What 
should a parent tell a child not to do, or to do when they 
enter a chat room and somebody starts asking for information.
    Ms. Hooper. Well, I think one of the most important things 
is parental supervision when your child is online, and not to 
allow particularly young children to go online unsupervised.
    And they need to set up certain rules. One of the most 
obvious things would be to ensure that the computer is in a 
high traffic area and not in the child's room where they can 
close the door and engage in these conversations independently. 
If you put the computer someplace where the parents always have 
view of the computer, they are less likely to get involved in 
these types of situations.
    And then the things that were mentioned earlier, not to 
give out any personal information, not to meet people that they 
have met online without their parents' approval, and 
supervision, generally as well.

                             Traveler cases

    Senator Gregg. You say there are 70 of these traveler 
cases. Can you explain what a traveler case is?
    Mr. Freeh. Yes, sir; a traveler case would be a case where 
in the course of contacts to our undercover agent we are 
receiving offers or solicitations to travel and meet the sender 
or the solicitor.
    We have had a number of cases where we have made arrests at 
the location where the subject asked our undercover agent to 
go--a hotel or restaurant. Sometimes there is discussion about 
sending bus tickets or plane tickets, using a credit card, for 
instance, to travel. The traveling notion is the idea of the 
physical contact notion, which may involve traveling by the 
subject or the victim.
    Senator Gregg. As I understand it, the way this usually 
works is somebody, some pedophile, or someone who has a sexual 
purpose in contacting the children, is online, in the chat 
room, talking with the children, and builds up over a period of 
time the confidence that that person is somebody other than who 
he is.
    In other words, he is presenting himself as a 13-year-old 
boy, or something, talking to a 13-year-old girl. And it turns 
out he is a 27 year old or 40 year old. And then as a result of 
those discussions he tries to convince the child, the only 
child, to come to a meeting with him, right?
    Mr. Freeh. Yes.
    Senator Gregg. Which ends with the potential for kidnapping 
or sexual abuse.
    Mr. Freeh. Yes; those are the most dangerous cases, 
obviously. Just to add to Agent Hooper's parameters, any 
contact, of course, on the Internet is a unknown contact. You 
do not know in this medium to whom you are talking.
    You think you are talking to a 50-year-old grandmother or a 
60-year-old professor. You do not know with who you are 
speaking, because anybody can be anybody on the Internet. So 
any indication or solicitation to travel and meet, or exchange 
phone numbers, or what school you go to, are very dangerous 
things of which parents need to be very aware.
    Senator Gregg. The purpose of the Innocent Images effort is 
to create the atmosphere out there, if I understand it, where 
when that adult who has predatory desires or purposes gets 
online and starts talking to a 13-year-old child, he doesn't 
know whether that 13-year-old child might actually be a FBI 
agent.
    Mr. Freeh. Exactly that. That is part of the prevention. A 
lot of people speed on the highway, but many people do not 
speed, or at least they do not speed as much as they would 
ordinarily, because they know that maybe there is a trooper or 
sheriff sitting around the corner. We want to create those 
inhibitions on the Internet with respect to protecting 
children.

                          DNA tracking system

    Senator Gregg. I want to ask one technical question, and 
then I will yield, and then maybe come back for some more 
questions.
    On this DNA issue, I notice that California has 60,000 
people that they had identified as sexual predators or sex 
offenders of children; 60,000. That's just a staggering number, 
and I am sure it is just because California is so big. I am not 
saying the number in California is disproportionate. It's just 
a huge number.
    We obviously have fingerprints of these people. Do we have 
DNA on every one of those folks?
    Mr. Freeh. We do not have it on the Federal level. On the 
State level, I believe California is one of the States which 
does require, I think, from convicted individuals in a certain 
number of categories, DNA samples.
    Senator Gregg. What should we do at the Federal level to 
try to give you more authority to be able to track these people 
through DNA?
    Mr. Freeh. In the Anti-Terrorism Act of 1996, I believe 
section 811, we were given the authority to implement a Federal 
convicted offender program, which would be based on collecting 
and storing DNA data from federally convicted offenders.
    We have not implemented that yet. The Department of Justice 
thinks that the authorization is not expansive enough to 
address a lot of legal concerns. We are now, with the 
Department of Justice, working on some legislation which we 
think would correct that.
    Once that authorization would be granted, obviously some 
appropriations would be also requested. We did request them in 
our 1999 request to OMB to implement that. I think it would be 
a very important and significant step forward, because you 
would capture in the Federal DNA offenders base, convicted 
offenders base, a whole universe of people who may slip through 
the State system.
    Senator Gregg. If you could provide us with the language 
the Justice Department feels is necessary I think it could 
probably find its way into the appropriations bill.
    Do you think we should go the route that we have done with 
the IAFIS program for DNA? Should we have a national capacity 
that goes beyond just Federal prisoners? Do you have the 
capacity to take all the California information and put that 
into a databank?
    Mr. Freeh. The CODIS system, as it has been designed and as 
it has been implemented now, with about 38 States 
participating, does give us the capacity to exchange and 
compare and identify. It almost is--I mean it is very similar 
to an IAFIS system. What is lacking now is the Federal 
component, and we will follow up on your suggestion to prepare 
some language.

                 Federal, State, and local cooperation

    Senator Gregg. Senator Hollings.
    Senator Hollings. Thank you, Mr. Chairman.
    Judge Freeh, the presentation you make is outstanding. I 
would only add one comment with respect to the coordination. 
Continue to try to emphasize working with the local agencies.
    I have been in law enforcement now for many years. I have 
traveled, worked with the sheriffs, I worked with the FBI 
agents, all around my State. There is always a jealousy or a 
parochial kind of impetus between the agencies. But they all 
sort of work separately and apart, to make sure they have their 
own case.
    And the local sheriffs will say time and again that they 
see the FBI agents. They are good, and everything else, but 
there is very little working together.
    So as you say in your statement here, that you emphasize 
cooperation, and I continue to emphasize it. Because otherwise 
I do not see how we are going to get enough money. Every one of 
these initiatives that you have are valid and realistic. I 
would want to financially support them all.
    I have to go to another meeting here later today where they 
will say cut spending, cut spending, cut spending. And then we 
will go down on the floor and we will make four or five other 
State offenses Federal crimes. This with the Justice Department 
budget in 10 years going from $4 billion to $21 billion.
    And we at the Senate level have had to add the $10 million 
onto this $32 million effort. And then the outstanding agent 
comes and says I have to stand in line for an undercover 
operation to get into a chat room. If I sign on as a 
pornographer, there are 22 ahead of me. I am No. 23.
    I don't know--they're talking about math and science. I 
think the emphasis has got to be on education, with drugs, with 
sex, with tobacco, with racism, and with pornography. Maybe we 
ought to get Secretary Riley up here with these hearings, and 
let's get some money for a general course of orientation in 
schools today.
    The Federal Government is just not providing enough money 
for drug prevention. I have watched it over the years. It gets 
worse and worse and worse. Now, we have learned not to smoke. 
When I came to these hearings years ago, there were ashtrays 
all over this place. And now no one is smoking, because 
everyone understands it is injurious to your health.
    And unless we can get that kind of feel that has developed 
with respect to drugs to develop with child pornography and 
these other things, then we will find we can't build enough 
jails.
    So we are going to end up about 20 or 30 years from now 
with those in jail and those out of jail in our society. It is 
really discouraging in the light of the outstanding job that 
you do.
    But let me listen to Director Allen later on, after the 
questions, and see what he can suggest.
    Thank you.
    Senator Gregg. Senator Mikulski.
    Senator Mikulski. Thank you very much.

                         Caliber of FBI agents

    Senator Gregg and Senator Hollings, you have been really 
leaders in this issue, and last year, thanks to the chairman 
and the ranking member, bringing in $10 million in the budget 
to establish the national headquarters in Baltimore.
    And I say that not because it is in my hometown. Really I 
think it was bold, it was innovative, and it heartened the law 
enforcement people who wanted to come to grips with this. And I 
think now the new CyberTipline program that was announced is 
another tool that families, parents, grandparents, teachers, 
and so on could use.
    I want to talk about resources that you need, Director 
Freeh. I know that Innocent Images was a result of a 10-year-
old boy in Prince Georges County who was seduced through the 
Internet and ultimately was murdered.
    Your action, the FBI's action, working with local 
enforcement, identified the despicable criminals, and this then 
led, I think, to the establishment of this.
    When I came to the Baltimore headquarters to see the 
demonstration with Agent Hooper and her team, there were two 
things that impressed me. One was the availability of 
pornography. It is not amusing. It is not entertaining. This is 
not something that is kind of a fun little picture to pass 
around in a junior high locker room. This was vile, and it was 
violent, and it promoted violence.
    The other thing that so shocked me was how easy if you went 
online and you said you were a child, or a teenager, how 
quick--and this was a 10 o'clock in the morning--the quick hits 
to come in.
    And also the way someone can masquerade for a child. So you 
could have a convicted, violent criminal online masquerading as 
a 9 year old working on a Scout badge, asking what seems to be 
questions but lead to this seduction.
    Now, let me then get--I mean, it was really shocking. But 
what was also impressive was the agents. This is not J. Edgar 
Hoover's FBI, where people went down the streets and we tracked 
bank robbers and we looked for Communists and all the areas 
where the FBI established an incredible reputation for 
competency.
    But what was required of these agents was incredible 
sophistication in the use of technology. They had to have a 
great background. They had to have great training, and they had 
to deal with, really, an intense burnout, because of the 
repugnant, the exposure to these repugnant and vile things.
    Could you tell me what you need in the way of resources, 
not only for the unit, but how to recruit and retain agents of 
this high quality? We have a technology worker shortage. 
Software engineers can make $65,000 and stay at home and get an 
espresso machine and 5 weeks of paid vacation if they will sign 
up.
    And here we are asking agents to come and do this. Could 
you talk about, one, what we can do to bring in the agents? 
What you need to bring in people as qualified as Agent Hooper, 
her team, and the others that you want to do? This is a very 
sophisticated work force that you are trying to recruit.
    Mr. Freeh. Senator, first of all, thank you very much for 
your comments. The credit is deserved by Agent Hooper and her 
colleagues.
    We have been, as an institution, extremely fortunate in our 
ability to attract and retain not just solid, outstanding 
agents, but agents who actually volunteer for these types of 
assignments. We have had, over the last 3 years, I think it is 
up to 89,000 applicants for our special agent positions. We 
hired 1,100 last year. In fact, I was at an FBI graduation in 
Quantico yesterday morning.
    Senator Mikulski. Excuse me. How many applicants did you 
say you had?
    Mr. Freeh. Over 80,000 there have been in the last 4 years.
    Senator Mikulski. 80,000 men and women want to be FBI 
agents?
    Mr. Freeh. Yes; and we have hired about 3,000 of those 
since I have been Director. It has been extremely good for us. 
It has been very good for the country.
    The agents who we turn away in terms of applicants are 
extremely qualified. Many of them have science and technology 
backgrounds. In fact, we started recruiting actively about 3 
years ago for agents with backgrounds in engineering, software 
engineers.
    All of our new agents who graduate from Quantico, in 
addition to their firearm and credentials, are given a laptop 
computer. This is the FBI of the information age. You saw a 
very good example of one dedicated program. But in many of the 
other areas that's replicated, in so far as we have been 
extremely fortunate in not only getting those people, but 
keeping them onboard.

                            Resources needed

    Senator Mikulski. Well, what do you need in the way of your 
budget, because we are the Appropriations Committee. And we 
will have many competing resources, under Commerce, State, and 
Justice, that will be challenges to both the chairman and the 
ranking member and those of us who are members. But what does 
the FBI need to fulfill this responsibility in this particular 
unit?
    Mr. Freeh. In this particular area, as it is in most areas, 
it is a combination of resources, people as well as the 
technology. The DNA national data base would be extremely 
helpful.
    The Attorney General and I did request of OMB for the 1999 
budget more agents, not only for the Innocent Images program, 
but to establish nationwide activity in our offices. We asked 
for some counselors, victim/witness specialists, which is a 
very important component of these cases--not just making the 
case, but dealing with the witnesses who in many cases need 
much help.
    We have asked for additions to our child abduction and 
serial killer unit in Quantico. We realize that the decisions 
at OMB are certainly guided by distributing a very small pot to 
many different agencies. We are going to renew that request 
next year, because we believe that those are dollars which are 
translated into cases.
    Senator Mikulski. Well, last year we gave you $10 million. 
Do you need more? Or the same?
    Senator Gregg. He said they were asking for more from OMB.
    Senator Mikulski. I know. But OMB isn't here. The FBI is 
here. And we want the FBI on the net.
    Mr. Freeh. That amount of money would significantly enhance 
the Innocent Images program, the child abduction program, and 
even spill over into the technology area.

                St. Mary's College students in Guatemala

    Senator Mikulski. Well, thank you. Mr. Chairman, before I 
conclude, I would like to thank Director Freeh for something. 
You talked about how your agents volunteer for special 
assignments.
    We had a terrible thing happen to some of our college 
students from St. Mary's College in Guatemala. They were 
robbed, and they were sexually assaulted. And because the FBI 
is working with the State Department on this issue, I want to 
thank you for the special FBI unit that you sent to interview 
the victims of the violence perpetrated against them. The 
families conveyed to me their gratitude to the FBI and said 
that the FBI sensitivity in dealing with these young ladies was 
something that also encouraged them to move forward with other 
counseling, and so on.
    I want you to know your FBI agents were really fit for 
duty, and the way that they then went about helping interview 
the victims, so that we could then work with the Guatemalan 
authorities, was so outstanding. It was tough law enforcement, 
but done in a very high quality way, and I want to express my 
gratitude.
    Mr. Freeh. Thank you, Senator. I will convey that to the 
agents. Thank you very much.
    Senator Gregg. I would second the Senator's thoughts there. 
Obviously that was a horrendous situation, and the FBI's 
professionalism is extraordinary in many areas, but clearly 
displayed there.

                          Congressional intent

    I would say this: that one of the major concerns that I 
have as chairman of this subcommittee is the fact that OMB has 
held up the congressional intent, that the FBI would have the 
authority to go outside of title V, hire at a higher rate the 
technicians necessary to compete in a world with cybercrime.
    We all recognize that folks who are computer literate can, 
as the Senator from Maryland said, get a tremendous job sitting 
at home with their Starbucks coffee and still make a lot of 
money. The FBI has to be able to compete because, also 
unfortunately, some of the criminals that they are fighting are 
technically sophisticated.
    Why OMB has stood in the way of what was clear 
congressional intent to give you the flexibility to hire people 
at higher grades of salary is beyond me, because it is clearly 
undermining our law enforcement capacity. This committee will 
try to do something to straighten that out.
    We congratulate you again for this initiative. Thank you 
for continuing it. I think, as you sense, there is a lot of 
sympathy here for what you are doing, a lot of support more 
than sympathy for what you are doing. Tell us what you need and 
we will try to get it for you.
    Mr. Freeh. Thank you, Mr. Chairman, and thank you, members 
of the panel.
                        NONDEPARTMENTAL WITNESS

STATEMENT OF ERNEST E. ALLEN, PRESIDENT AND CEO, 
            NATIONAL CENTER FOR MISSING AND EXPLOITED 
            CHILDREN

    Senator Gregg. We will now hear from Director Allen, head 
of the National Center for Missing and Exploited Children, 
which has with the help of the FBI and the private sector 
evolved into the premier agency in this country for addressing 
issues of child exploitation, obviously kidnapping, but also 
protecting children who are using the Internet. It is 
addressing the issues of the use of the Internet by child 
pornographers and people who wish to take advantage of the 
Internet and the children who use the Internet.
    It was a great pleasure for me yesterday to join with the 
Director, the ranking member, and representatives of the 
private community--especially the online provider groups, 
represented by Mr. Case of America Online--as you announced 
your CyberTipline. It is a wonderful initiative which I know is 
going to be a tremendous resource for parents in this country 
as they try to deal with the need to have some place to turn 
when they run into one of these situations, which is obviously 
far too common on the Internet, of sexual exploitation of 
children either through exchange of pornography or through 
solicitation.
    We thank you for coming to give us your thoughts on how we 
can best address this issue, on the parental side, the public 
side, and the private side.
    Mr. Allen. Thank you, Mr. Chairman. I have provided written 
testimony, and with your permission, I would like to just 
briefly summarize.
    Senator Gregg. Certainly.
    Mr. Allen. First, let me thank you and Senator Hollings for 
your wonderful leadership and support on this issue. The 
hearing 1 year ago was more than a discussion about an issue. 
It truly launched a pattern of action, a campaign that we 
really think is going to make a difference.
    What I wanted to do today is just briefly report to you on 
what has happened since then. And if I could first, I would 
like to report to you in a more general way, because you two 
Senators have led this committee for a long time, and for 14 
years have been the source of public support for the work of 
the National Center for Missing and Exploited Children. I 
wanted to thank you for that, and to report to you that your 
support is making a difference for America's children and 
families.
    In 1997, we had a record year. We had the largest number of 
calls for service in our history. We had the largest number of 
cases received. And on the positive side, we also had our 
highest recovery rate ever.
    Pre-1990, our recovery rate was about 60 percent. Last 
year, it was 95 percent. And I think the message there is that 
the public-private partnership and the system we have built is 
working. There is a network that is getting information quickly 
to America's 17,000 police departments. There is a better 
system for responding, and children are being brought home as 
never before.
    Director Freeh mentioned earlier, and I really want to 
commend him for his leadership on behalf of children, but we 
truly believe that one of the reasons for the heightened 
success rate in 1997 was his initiative last February to create 
the check off on the NCIC report form.
    The U.S. Department of Justice just released survey 
research that found that in cases in which children are 
abducted and murdered, in 74 percent of those cases the child 
is dead within the first 3 hours. So time is the enemy in these 
cases. The more quickly we can get information and we can 
disseminate information, and we can activate the resources that 
are now available, the greater the likelihood for the recovery 
of the child.
    We at the center, as the result of Director Freeh's effort, 
received 642 of those child abduction flags, the instant 
notification, through NCIC. And I truly believe that that is 
one of the reasons why the recovery rate has climbed so high so 
quickly. So thank you for the leadership of this committee and 
all that you have done for the center and for America's 
children.
    I also wanted to update you on what we now know since last 
year's hearing on quantifying the problem of the seduction of 
children, the luring or enticement of children on the Internet. 
We at the center have been involved in 60 cases, of the so-
called traveler cases, in which kids have been seduced online 
and then persuaded to leave, by an adult, usually for sexual 
purposes.
    Of those cases, 85 percent of those kids have been 15 years 
of age or older; 75 percent have been girls. So I think one of 
the things that we now know, more than we did at this time last 
year, is that the most vulnerable demographic for Internet 
exploitation and seduction are teenage kids.
    In addition, just in the last 2 years, and I think this is 
a tribute to the commitment of this committee and to Federal 
law enforcement, there have now been 400 convictions in Federal 
court for Internet-related child sexual exploitation offenses. 
That includes both the FBI's Innocent Images effort and the 
U.S. Customs Service child pornography effort.
    One of the other things that I have tried to do--and the 
point was made earlier that this is a problem that is appearing 
in all kinds of places and in all kinds of communities, and 
that there seems to be more of every day--is that we looked 
just at cases within the last month from the States represented 
on this particular committee.
    And to give you an idea, every member of this committee had 
significant child sexual exploitation, Internet-related cases, 
since January 1, 1998. Senator Hollings, that included a case 
last month in Midway, SC, in which an individual was arrested 
on child pornography charges over the Internet.
    Senator Gregg, it included a case last month in which a 27-
year-old man was arrested for targeting a child from Keene, NH.
    So this is a problem. We have said about this issue 
generally that the only way not to find it in any community is 
simply not to look for it, and because of your leadership 
America has begun to look. We can anticipate many more cases, 
many more charges, and that the appearance is that the problem 
will be growing.
    Also encouraging is the development of additional 
specialization and task forces at the State and local level, as 
we discussed last year. Particularly noteworthy, I think, is 
New York Attorney General Dennis Vacco's Operation Ripcord, 
which is a multiagency effort spearheaded by the New York State 
Police that has resulted in the identification of 1,500 people 
transmitting child pornography, more than 100 search warrants, 
and so far dozens of prosecutions.
    The Florida Department of Law Enforcement has been a leader 
in its central Florida child exploitation task force, which is 
targeting this effort. And State and local law enforcement, as 
was evidenced yesterday by Detective McLaughlin from Keene, NH. 
More and more are playing a role in this.
    In many cases it is an individual officer who is computer 
literate, has computer expertise, and in some cases is doing it 
on his own time. So your initiative to help build expertise at 
the State and local level we think is very, very timely and 
important.
    Your committee's mandate last year was really threefold. 
The first was to enhance Federal resources, and we supported 
enthusiastically and still support increasing resources for the 
FBI's Innocent Images task force. They are the lead, they are 
the point agency in this effort for all the progress we have 
made.
    They are still attacking a national problem with relatively 
slim numbers, and building that asset, that resource, we think 
is very important.
    Second, your mandate was to enhance State and local law 
enforcement's capability. And I mentioned to this committee 
last year that I had heard someone say that when the automobile 
was first developed, law enforcement opposed it, and the 
concept was only the crooks will have the cars and we will be 
chasing them on foot and on horseback.
    Well, I submit that that is the case here as well. In many 
situations American law enforcement still doesn't even have 
PC's and modems; has no idea what people are doing. And in the 
area of child pornography, when the Supreme Court of the United 
States said that child pornography is not protected speech, and 
there was aggressive enforcement effort in the mid-80's, the 
effect of that was to run it out of adult bookstores.
    The work of the U.S. Postal Inspection Service has 
minimized the use of the mails. But where child pornographers 
have reached is areas where they have relative anonymity and 
apparent sanctuary--places where they can trade and transmit 
images and information with little risk. One of our primary 
challenges is to help law enforcement catch up with the 
technology.
    Finally, as Senator Hollings has talked about on many 
occasions, we believe that there is far greater need for public 
education, awareness building, and giving families the tools to 
deal with this problem.
    So, quickly to report to you on what we have done since 
that hearing, and since your appropriation, there are really 
several points that I want to touch on quickly. One, Senator 
Gregg, we were honored by your presence and your announcement 
at the CyberTipline launch yesterday, and Senator Hollings 
honored that you were represented there as well.
    The CyberTipline is up and running. And since its 
announcement, we have already received 150 leads. Those are 
leads just as a result of free media, and as the online 
industry helps us make that address better known to the public, 
we think that there is a real opportunity for parents whose 
kids encounter suspicious situations or situations of concern 
on the Internet, to get us those leads and information and to 
respond to them in an effective way.
    All of the leads that we are receiving are going to five 
primary sources: to the FBI's Innocent Images task force; to 
the FBI's crimes against children unit; to the U.S. Customs 
Service child pornography unit; to the U.S. Postal Inspection 
Service; and to the Morgan Hardiman task force, which is headed 
by the FBI and based at Quantico. Also those agencies have all 
been linked to the CyberTipline and they have been provided 
technology so that they have the ability to access and search 
the entire data base of leads and information at any given 
time.
    Once a lead is received, our hotline operators will be 
prioritizing those leads, and the primary criteria for priority 
will be the risk to the child. So if the lead suggests that a 
child is in immediate danger, we will respond very much in a 
911 situation.
    And that is, we will target that information, we will 
trigger responses, we will make sure that every possible 
resource is used to protect that child. If the child may be in 
immediate danger, there will be a priority response, though not 
quite that 911 response. If the child from the information does 
not appear to be in immediate danger, the tip will be received, 
cataloged and assessed and provided to the appropriate agency.
    Also it is interesting that from the 150 leads we have 
received so far, and I do not suggest that that is enough for 
this necessarily to be representative, in at least one-half of 
those cases, the lead information is sufficient to enable us to 
pinpoint the locality in which the child victim may be located, 
may be victimized.
    So that in at least one-half of the cases so far it does 
appear appropriate for us to provide that lead to a State or 
local agency, in addition to the Federal agencies that will 
routinely receive them.
    The second issue that I want to mention that was part of 
your mandate is the creation of these pilot cyberpolice units, 
that Director Freeh talked about. The Office of Juvenile 
Justice and Delinquency Prevention, our partner in this 
initiative, has prepared a draft RFP, has circulated it, and it 
will be going out shortly. And the Justice Department will be 
receiving and reviewing proposals to create those special units 
at the State and local level.
    It is our expectation that we will learn a great deal from 
those units. Clearly this is an issue where FBI leadership is 
very important, but this is also a crime in which there are two 
pieces to the puzzle. While the use of the Internet and the 
transmission of data and images and information is key, as I 
said last year at this hearing, in every one of these cases 
there is a local victim.
    At this hearing last year, you heard from a mom whose child 
had been sexually molested in her hometown while the 
perpetrator photographed the sex acts, then he sold those 
images over the Internet.
    So our belief in each one of these cases is--we really need 
to pay close attention to the local essence, the local nature 
of this problem, and make sure that State and local governments 
have the tools and expertise to work in partnership and in 
coordination with Federal law enforcement to follow through on 
these investigations.
    By June of this year, the center will hold in partnership 
with the FBI and the Office of Juvenile Justice and Delinquency 
Prevention its first cyberpolice training course. I think all 
of you know that it was this committee that was responsible for 
our Jimmy Ryce Law Enforcement Training Center program, which 
was launched by Director Freeh and members of this committee 
last April.
    In the first year we have already trained, at policy level 
training seminars, we have already trained police chiefs and 
sheriffs from all 50 States and Guam. And using that model, we 
are going to be conducting specialized training for law 
enforcement, State and local law enforcement, on cyberpolice 
techniques, on this problem and issues and technology related 
to it.
    There will be two courses. There will be one that is an 
investigator's course, and, second, there will be a course for 
mid-level managers.
    The nominations for participants in those courses will come 
from the graduates of our Jimmy Ryce Training Center, who are 
police chiefs and sheriffs from across the Nation, as well as 
from the FBI and other Federal law enforcement.
    So again, this is a partnership effort. You heard the 
Director mention his commitment to provide a liaison agent at 
the centers so that we strengthen our working relationship. He 
has also committed training agents to work with us and assess 
and work on that process.
    In December, at the Families Online Summit, we began the 
CyberTipline, telephone only, until we were ready to go online. 
And just to give you an idea, in those 2\1/2\ months, we have 
already received 263 leads over the telephone.
    Now, those leads break down as follows: 206 of them were 
for Internet-related child sexual exploitation. But we received 
other leads as a result of this initiative addressing child 
sexual exploitation in other ways. And we think the same thing 
will happen with the CyberTipline.
    We think that people will not just send us leads about 
child pornography or child enticement on the Internet, they 
will send us leads about child victimization generally. But we 
have already, in addition, received 28 leads on general non-
Internet-related sexual exploitation, 4 child pornography 
leads, 4 child prostitution leads, 18 leads about pedophile 
activity, and 3 leads about child sex tourism. So in many ways 
we think what you have done is going to have impact even beyond 
its focal point.
    We have, as we announced yesterday, because of the data 
showing that teenagers are at greatest risk, we have created a 
new public education piece written for us by a Los Angeles 
Times columnist, called ``Teen Safety on the Information 
Highway.''
    We did an original piece called ``Child Safety on the 
Information Highway,'' and we have distributed almost 3 million 
of those to parents and kids. It is our goal, and this is 
specifically written so it is more relevant, more readable, 
perhaps a little less preachy, so it will be more likely to be 
used by teenaged kids. Our hope is to put this into schools and 
into the hands of families and teenagers across the country.
    Three other developments that we are excited about that we 
think are the precursors of other partnerships on this issue to 
come is that as a result of your initiative we are hearing from 
private companies asking how we can help. For example, 
Surfwatch, which was the pioneering company developing access 
controls for the Internet to help parents keep kids out of the 
more high-risk areas, has now linked with us so that when their 
customers complain about content that they encounter, Surfwatch 
is going to send that lead information directly to us through 
the CyberTipline.
    Similarly, America Online [AOL] has started a program 
called Kid Patrol, which is a partnership with the center using 
what is called Push technology, which will allow us actually to 
take content--images and information--directly into the homes 
of AOL's 10 million subscribers, as well as to use them to 
generate content leads and information for us.
    And the chairman of America Online committed yesterday that 
AOL, once we are absolutely confident that we can handle the 
volume that we have created with the CyberTipline, that AOL 
will help promote it, will let their users and subscribers know 
that this is a resource that is available, so that if you 
encounter content that is troubling on AOL or anywhere you will 
be able to link directly to the CyberTipline and bring us those 
leads and information.
    And then Lycos, which is a search engine company, one of 
the top 10 most heavily trafficked sites on the Internet, has 
made a similar commitment, that it will promote this site, has 
developed links to the center, and they will funnel content to 
us which will be placed in the hands of Federal law 
enforcement.
    So I think in many ways we did not anticipate all of the 
positive repercussions of what you launched, of what came from 
your hearing last spring. But I think the most exciting thing 
about it is that it truly is a public/private partnership.

                           prepared statement

    The technology to support this operation is entirely 
private sector provided, so what we can report to you is that 
the dollars that you committed to this effort we think are 
being multiplied. And the effects, we think, will be far 
greater.
    Mr. Chairman and Senator Hollings, we are honored by your 
confidence. We think that what you began will have enormous 
impact in the lives of families and children across the 
country, and I look forward to being able to report to you 1 
year from now or sooner about the specific impacts, specific 
cases that are made, specific children whose lives are being 
touched as a result of this effort.
    [The statement follows:]
                 Prepared Statement of Ernest E. Allen
    Mr. Chairman and members of the Committee, as President of the 
National Center for Missing and Exploited Children, I am honored to 
report to you on our progress since your hearing almost one year ago. 
We are moving swiftly and aggressively to implement your mandate in 
attacking the problem of child pornography and child sexual 
exploitation on the Internet.
    However, I did want to take just a brief moment to thank you in a 
broader way for your long-standing leadership and support for the work 
of the private, nonprofit National Center for Missing and Exploited 
Children (NCMEC). Since 1984, per your mandate and with your support, 
NCMEC has been proud to serve as America's national resource center and 
clearinghouse for missing and exploited children. Working in 
partnership with the U.S. Department of Justice/Office of Juvenile 
Justice and Delinquency Prevention (OJJDP), we are working with law 
enforcement to find missing children as never before, and are making 
great strides in the prevention of child victimization. We have just 
completed a record-setting year:
    Recovery rate.--NCMEC'S missing child recovery rate pre-1990 was 62 
percent. Since 1990, it has grown to 90.3 percent, with a 95 percent 
recovery rate in 1997, our all-time record.
    Calls for service.--In 1988, we received 52,000 hotline calls. In 
1997, we set a record, handling 129,100 calls. Since 1984, we have 
handled 1,168,570 calls, and currently average 700 per day.
    The worldwide web.--With so much attention to the negative aspects 
of cyberspace, I am pleased to report on its use for good. On January 
31, 1997, we launched our new website, www.missingkids.com. The 
response has been overwhelming. On February 1, 1997, we received 3,000 
``hits.'' Today, we receive 1.5 million ``hits'' every day, and are 
linked with hundreds of other sites using Java applets to provide real-
time images of breaking cases of missing children.
    To demonstrate its application in a real-world sense, in November a 
police officer in Puerto Rico searched our website, identified a 
possible match, and then worked with our Case Manager to identify and 
recover a child abducted as an infant from her home in San Diego seven 
years ago.
    International.--NCMEC is now playing a key role in international 
child abduction cases as the State Department's representative on in-
coming cases under the Hague Convention. We have successfully resolved 
the cases of 343 children, are using the worldwide web to build a 
network to distribute images worldwide in partnership with INTERPOL.
    Jimmy Ryce Law Enforcement Training Center.--Thanks to the support 
of this committee, in April 1997 we opened our new training center. 
Each month NCMEC brings in chiefs and sheriffs for a policy seminar on 
missing and exploited child investigations. In 1997, we trained 256 
chiefs and sheriffs from fifty states and Guam, as well as the 
INTERPOL/U.S. state representatives.
    NCIC ``CA'' Flag.--I am particularly proud of our partnership with 
the FBI. In February 1997 the FBI Director created a new NCIC child 
abduction (``CA'') flag to provide NCMEC and the FBI's child abduction 
unit immediate notification in the most serious cases. Time is the 
enemy. The Justice Department found that in 74 percent of child 
abduction/homicides, the child is dead in the first three hours. Today, 
44 states are up on the new system. In 1997 NCMEC received instant 
``CA'' notifications in 642 cases. We believe that receiving this 
information rapidly is a key reason that NCMEC had its highest recovery 
rate in history.
    None of this would have been possible without the remarkable 
leadership, commitment and support of this subcommittee, and the 
creation of a true public-private partnership for America's children. 
We are deeply grateful, and are proud of the work we are doing 
together.
 an update on our progress in addressing child sexual exploitation on 
                              the internet
    A year ago, when I appeared before your committee, I indicated that 
there was growing evidence of the criminal misuse of cyberspace to 
target and victimize children. Today, we have a little more 
information. The risks to children, particularly teenagers, in 
cyberspace include: Use by predatory adults to entice children to leave 
home for purposes of child sexual exploitation; and exposure to child 
pornography and other unlawful sexual content on the Internet.
    In the past two years, NCMEC has been involved in approximately 60 
``traveler'' cases in which a child has left home or been targeted by 
an adult via the Internet to leave home. NCMEC worked these cases as 
missing children. In 83 percent of the cases, the victim has been 15 
years of age or older. In 75 percent of the cases, the victim has been 
female.
    To date, we are also aware of at least 400 adults who have been 
convicted of Internet-related child sexual exploitation offenses in 
federal courts. Through February 18, 1998, the FBI's Innocent Images 
Task Force has produced 184 convictions. And, since April, 1996 Customs 
Service investigations have produced 240 convictions.
    These cases are now being reported and investigated almost 
everywhere. It is a problem in virtually every community. For example, 
in the past few months, there have been major cases reported in every 
state represented on your committee:
  --In February, a 27 year old man was arrested as he awaited a 14 year 
        old Keene, New Hampshire boy he had enticed via the Internet;
  --In February, an assistant fire chief in Midway, South Carolina was 
        arrested on child pornography charges over the Internet;
  --In January, an Eagle River, Alaska man pleaded guilty to child 
        pornography charges using the Internet;
  --In March, a New Mexico doctor flew to Spokane, Washington to have 
        sex with an 8-year-old girl, and was charged with child 
        pornography and sexual abuse;
  --In January, a Lexington, Kentucky attorney was sentenced to a year 
        in prison in connection with Internet child pornography;
  --In February, in Corpus Christi, Texas a chemical engineer who had 
        arranged a sexual rendezvous with a 13 year old girl he met 
        over the Internet was arrested;
  --In February, a Broomfield, Colorado man was sentenced to two years 
        for receiving child pornography through a chat room;
  --In September, a Pope County, Arkansas man was sentenced to two 
        years in prison for child pornography he obtained through the 
        Internet;
  --In February, a teacher was arrested at the Bergen Mall in Paramus, 
        New Jersey in connection with a planned sexual encounter with a 
        13 year old girl; and
  --In January, a Maryland hydrologist was convicted for the 
        distribution of child pornography over the Internet.
    It is clear that this is not an isolated problem, it is widespread 
and growing. An encouraging development is the growing number of 
specialized units at the state and local level targeting these 
offenses. Particularly noteworthy are New York Attorney General Dennis 
Vacco's Operation Rip Cord, an ongoing blitz being waged by the 
Attorney General and the New York State Police against child 
pornography in cyberspace. Through this multi-agency initiative, New 
York State Police investigators have had contact with more than 1,500 
individuals who have transmitted child pornography, and executed more 
than 100 search warrants, resulting in dozens of prosecutions.
    Another important example is the Florida Department of Law 
Enforcement's Central Florida Child Exploitation Task Force, an 
eighteen agency task force of city, county, state and federal agencies. 
There are some excellent local units as well, including the pioneering 
cyberpolice unit at the San Jose, California Police Department.
    Enhancing law enforcement awareness and expertise is particularly 
important due to the dramatic expansion of the number of kids online. 
According to a report from FIND/SVP's Emerging Technologies Research 
Group and Grunwald Associates, by the year 2002, more than 45 million 
children will be online.
    NCMEC has attempted to address the risks to kids in cyberspace 
through a simple strategy
    To Prevent Child Victimization in Cyberspace Through Aggressive 
Prevention/Education and Outreach Programs Directed Toward Parents and 
Children.--Many parents have a false sense of security regarding the 
risks to their children in cyberspace. Their children are at home, 
often in their own rooms, doing something positive and useful for their 
future. Many parents have little knowledge about computers and what 
their children are doing online, and feel that there is little risk. 
Similarly, many children view cyberspace as a variation on their 
computer or video games. As a result they may not view encounters with 
real people online with a sense of caution or skepticism.
    NCMEC is seeking to reach into millions of homes and classrooms 
with positive, common-sense rules for safety on the information 
highway. NCMEC's message for parents focuses upon strong parental 
involvement in their children's lives, increasing parental knowledge 
and awareness about computers and the Internet, and the importance of 
parent-child communication.
    Similarly, NCMEC is reaching out to children with basic rules for 
safety on the information highway, including cautions not to give out 
personal information online, and not to meet someone they encounter 
online. A cornerstone of this effort will be a campaign to provide 
mouse pads with safety tips, particularly in classrooms. Our announced 
national goal is to wire every school in America for the Internet by 
the Year 2000. It is NCMEC's goal to ensure that every school has a 
mouse pad with Internet safety tips for every PC connected to the 
Internet.
    To Advocate Help for Parents Through the Development of Technology 
Tools and Access Controls.--NCMEC supports efforts to provide help for 
parents through blocking software and access control tools like 
SurfWatch, Net Nanny, and similar products, enabling parents to limit 
areas of the Internet to which their children have access. While such 
tools should not be viewed as substitutes for basic parenting, nor do 
they prevent adult predators from going to where the children are on 
the Internet to seek their victims, nonetheless they are useful tools 
for parents to provide an extra layer of protection for their children.
    To Promote a National Campaign of Aggressive Enforcement.--NCMEC 
feels that the most important element of its Cyberspace Strategy is 
aggressive enforcement by federal, state and local law enforcement, 
directed against those who misuse the Internet for criminal purposes. 
The distribution of child pornography is not protected speech. Whether 
it is sold in adult bookstores, sent through the mails, or distributed 
via cyberspace, it is a crime. Similarly, enticing, luring or seducing 
children online is unlawful.
    The best way to protect the positive, unfettered uses of the 
Internet is to ensure that it not be allowed to become a sanctuary for 
pedophiles, child pornographers and others who prey upon children. 
Oftentimes, criminals misuse new technology before law enforcement 
acquires the tools and expertise to counter such uses. NCMEC is 
committed to help law enforcement catch up.
                       the subcommittee's mandate
    Following last year's hearing, your committee took action and 
focused on three key elements:
    Enhancing Federal Law Enforcement Resources.--Despite the 
extraordinary work of the FBI's Innocent Images Task Force and the 
Customs Service's International Child Pornography Investigation and 
Coordination Center, both efforts were relatively new and required 
greater investment in resources and personnel. Thus, we were delighted 
by the bold action taken by this committee in the fiscal year 1998 
budget and your commitment to dramatically strengthen Innocent Images. 
We support it enthusiastically, and are confident it will pay dividends 
far beyond the dollars you have committed.
    Enhancing State and Local Law Enforcement.--Similarly, we expressed 
support for an effort to strengthen state and local law enforcement 
expertise and resources. Diane Doe, a victim mother who testified at 
your hearing testified to an all-too-often circumstance, a case in 
which a child is victimized locally, with the Internet becoming the 
distribution vehicle for the photos of the act(s). We made the point 
that the actual victimization of these children is a local offense, the 
investigative responsibility of state and local law enforcement. We 
urged you to seek ways to enhance the expertise and capabilities of 
state and local law enforcement in addressing these crimes.
    You have done that. The Justice Department's Office of Juvenile 
Justice and Delinquency Prevention is about to initiate a competitive 
process which will ultimately fund eight pilot CyberPolice Units in 
state and local law enforcement agencies. These demonstration sites 
will offer an important case study as we seek to define and expand the 
role of state and local law enforcement in attacking this problem.
    Similarly, you directed that NCMEC spearhead an effort to train 
state and local law enforcement on this issue. We are collaborating 
with the FBI and OJJDP and moving ahead swiftly.
    Aggressive Public Education and Awareness Initiative.--As with 
every other kind of criminal activity, public education is vital, both 
to help protect prospective victims and to reach out to the public with 
key information to identify perpetrators. The cornerstone of that 
initiative is our new ``CyberTipline.''
                              ncmec report
    Your bold new campaign against child sexual exploitation in 
cyberspace is aggressive and comprehensive. I wanted to update you on 
what NCMEC has done and is doing since the passage of the appropriation 
and your directive to move forward:
    CyberTipline.--Yesterday, the leaders of this committee, the 
Director of the FBI, and key private sector leaders joined with NCMEC 
to launch the new CyberTipline, www.missingkids.com/cybertip. The 
tipline was created for parents to report incidents of suspicious or 
illegal Internet activity, including the distribution of child 
pornography online or situations involving the online enticement of 
children for sexual exploitation. Seven days per week, 24 hours per 
day, NCMEC will be fully staffed to handle leads, and then distribute 
those leads to the appropriate law enforcement agencies.
    One of the exciting elements of this initiative is that the online 
industry is a strong partner. Leading companies including America 
Online, Microsoft, CompuServe, AT&T, NetCom, the Interactive Services 
Association, the Commercial Internet eXchange Association, and others 
are providing financial support and have committed to promote the 
CyberTipline through their subscribers and supporters.
    Effective Monday, March 9 at 1 p.m., the FBI's Innocent Images Task 
Force, the Crimes Against Children Unit at FBI Headquarters, the U.S. 
Customs Service ICPICC Unit, the U.S. Postal Inspection Service, and 
the Morgan Hardiman Task Force at Quantico will have immediate access 
to all data received on the CyberTipline via the web. Thus, these 
primary federal law enforcement agencies will be able to receive, 
access and review all leads received immediately. FBI and Customs have 
already received training on the system and its use.
    The process in place is as follows:
    (1) A child becomes suspicious of an attempted enticement or is 
concerned about content he or she believes to be child pornography, and 
tells his/her parents about the incident.
    (2) After learning of the attempted enticement, the parents and the 
child link to the CyberTipline and fill out an online report form for 
child sexual exploitation.
    (3) The CyberTipline provides online users an avenue for reporting 
Internet-related child sexual exploitation. The CyberTipline form 
ensures that law enforcement will receive all pertinent information to 
conduct a thorough investigation.
    (4) The CyberTipline reporting form will capture information on the 
reporting person, Internet-related information, the child victim, the 
suspect and provide a text field for other information.
    (5) The completed report is immediately sent to NCMEC's Web Server 
and stored with hundreds of other ``leads.''
    (6) NCMEC Operators retrieve each lead and prioritize it based on 
degree of danger. One of three priority categories will be assigned:
  --Child is in IMMEDIATE DANGER;
  --Child may be in immediate danger;
  --Child is NOT in immediate danger.
    If more information is needed, the Operator will contact the 
reporting person. Each report is forwarded to an NCMEC Exploited Child 
Unit Information Analyst.
    (7) The ECU Analyst reviews the report carefully and assesses the 
information provided. This may include visiting the site of the 
incident or conducting searches on the subject in question--adding 
value to the lead.
    (8) In a case of immediate child endangerment, the ECU Staff or 
Operator will immediately contact via phone any federal, state or local 
law enforcement agency that needs to be notified of the potential harm 
to the child, and documenting that contact on the Tipline report. ECU 
staff will never assume that although the data is available on the 
database, that any of the above agencies have viewed the data.
    As part of this initiative, NCMEC has increased its hotline 
staffing from 14 to 26, and will have core staff on-site 24-hours per 
day. While the greater volume will probably occur during normal hours, 
we believe the overnight hours will be critical for keeping up and 
doing follow up online.
    In December at the Families Online Summit, NCMEC initiated its 
CyberTipline using its telephone hotline only. Since that announcement, 
in less than three months NCMEC has already received 263 leads, up 
nearly 350 percent over our normal volume. Those leads break down as 
follows:

Child Sexual Exploitation (General Extra-Family)..................    28
Internet-Related (Child Sexual Exploitation)......................   206
Child Pornography (General).......................................     4
Child Prostitution................................................     4
Pedophiles........................................................    18
Sex Tourism.......................................................     3

    With the advent of the CyberTipline, citizens will be able to 
choose whether to provide their information via the telephone hotline 
or online. We have built the system so that it is seamless. The same 
information will be captured regardless of which method is used, and 
the data will be accessible by law enforcement through a single 
database, again regardless of source.
    With our data indicating that teenagers are at greatest risk 
online, we have released our new ``Teen Safety on the Information 
Highway'' publication, and are seeking to disseminate it to schools, 
families and teens themselves. Written by Los Angeles Times syndicated 
computer columnist Larry Magid, the publication was produced in 
cooperation with the Interactive Services Association and the Master 
Teacher.
    On February 10, 1998 NCMEC joined with SurfWatch, maker of the 
first Internet filtering product, in a partnership to provide leads to 
NCMEC and its CyberTipline. SurfWatch is creating an online capability 
on its website for its users and customers to report child pornography 
or child exploitation directly to NCMEC and its CyberTipline. We are 
hopeful that other companies will follow this example, helping NCMEC 
promote the CyberTipline and provide the most direct linkage for users, 
so that when they encounter inappropriate or questionable material, 
they can easily and immediately link with NCMEC's CyberTipline and 
provide their information.
    America Online began a program with NCMEC called ``Kid Patrol,'' 
through which NCMEC can take images and breaking information directly 
to AOL users. It is our vision that this effort will become a kind of 
two-way communication vehicle using cyberspace.
    Similarly, Lycos, the search engine, has joined with NCMEC to 
leverage the Internet for child safety, taking images and information 
to Lycos' users, and making it easier for users to get to NCMEC.
    On February 18, 1998, we hosted a full day meeting at NCMEC to 
examine issues relating to child sexual enticement on the Internet. 
Participants included representatives of the FBI, Justice Department, 
American Bar Association, Customs Service, Office of Juvenile Justice 
and Delinquency Prevention, Assistant U.S. Attorneys from New Mexico 
and Illinois, American Prosecutors Research Institute, National Law 
Center on Children and Families, Harborview Medical Center, Enough is 
Enough, Fairfax County (VA) Police Department, University of Arizona, 
America OnLine, and others.
    Participants examined and discussed the offenders, the ways in 
which children are enticed online, the barriers to identifying this 
criminal behavior, prosecutorial implications, the successful uses of 
federal and state laws to date, sentencing issues, NCMEC's handling of 
an enticement-related ``cybertip,'' law enforcement response, and 
related issues. It is our commitment to continue this kind of dialogue, 
and reach out to a broad cross-section of leaders to ensure that we 
maximize this important new resource.
    We are encouraged by the fast start, and by the enthusiasm being 
demonstrated by our federal law enforcement partners and by the private 
sector. However, we have only just begun.

    Senator Gregg. Thank you. And thank you and your 
organization, because if you were not there, this would not 
work. We can provide the money but that's really only a minor 
part of the equation. The major part of the equation is having 
somebody like yourself and your organization that is committed 
to this issue and has the expertise and the ability and the 
desire to go out and make it work. We are just a small player. 
You are the big player.
    What else should we do?
    Mr. Allen. Well, I think certainly it is important that we 
do more in the area of prevention education. Our premise 
yesterday was that the public is the best source of this 
information, and our premise from the beginning is that one of 
the reasons why kids are at risk in cyberspace is that parents, 
by and large, do not really know what their children are doing. 
Kids tend to be far more computer literate, far more computer 
sensitive. There tends to be a false sense of security on the 
part of a lot of parents. My kid's at home. He is in his room. 
He is doing something positive that is good for his future. You 
can almost hear the audible sigh of relief.
    And, second, on the part of the kid, many times there is 
that same kind of other worldly aspect, that it is a glorified 
computer game or a glorified video game. What we are trying to 
do, and I think it is well understood, but I want to add it 
every chance I have, we are aggressive advocates for the 
Internet and strong advocates for families and kids to use the 
Internet.
    But we think we need to do a better job of communicating to 
families and kids across the country that there are some risks, 
just as there are risks in the shopping mall and the playground 
and everywhere else in society, there are some risks. And the 
best way to address those risks is to sensitize and to make 
people more aware.
    Our whole strategy in this from the beginning, and in many 
ways it parallels this committee's campaign, is threefold: 
First is to reach into every home and touch every family in 
America, and to make sure that families and kids have the tools 
and the information they need to stay safe.
    Second, as a part of that whole initiative, this country 
has made a commitment to wire every classroom for the Internet 
by the year 2000. We think it is just as important as an 
element of that that every classroom in America have child 
safety on the information highway information, and that 
teachers are talking to their kids about the risk--not in a 
negative, scary, fearful way. Not in way that sends the 
message, you should not go online. But simple, commonsense 
stuff that says the sorts of things that Director Freeh and 
Agent Hooper said to this committee earlier. I think that whole 
area of public education and awareness needs to be done, and it 
needs to be done more.
    The second part of our strategy was to support and 
encourage the development of technology tools--access controls, 
like SurfWatch and others, to help give parents some tools to 
limit access of kids to areas of obvious greater risk.
    Then the third element of that initiative is aggressive 
enforcement. For all the progress that we have made, and you 
will hear from no greater fan of the FBI and no greater 
supporter of what Director Freeh has done, to really make a 
priority in terms of crimes against kids, we as a Nation have 
just begun.
    Innocent Images is only 2 years old and has already made 
184 arrests resulting in convictions. I think enforcement is a 
key element of this, and our view is that there is plenty of 
unlawful activity on the Internet. For example, child 
pornography is illegal whether it is in an adult bookstore, or 
sent through the mails, or in a school playground, or on the 
Internet.
    I believe firmly that it is in the best interests of the 
online industry, and the best interests of everybody to be more 
aggressive and more effective in terms of enforcing, 
identifying, and targeting those offenders who are misusing the 
Internet for illegal purposes. And I think, frankly, there are 
more resources that probably could be spent and need to be 
spent on that.
    Senator Gregg. Thank you. Senator Hollings.
    Senator Hollings. You just stated child pornography was 
illegal even on the Internet, and what was the recent decision? 
What was the recent Supreme Court decision?
    Mr. Allen. Well, there was a Supreme Court decision on the 
Communications Decency Act.
    Senator Hollings. Yes.
    Mr. Allen. I think that issue spoke more to the definitions 
that were created in that bill in terms of indecent 
communications or indecent speech. Certainly illegal 
pornography, child or otherwise, if it meets the test of 
obscenity under existing caselaw, it is illegal wherever.
    Senator Hollings. What about the sentencing. Is that 
sufficient in your opinion?
    Mr. Allen. We are always in favor of sentencing 
enhancements where the victim is a child. Now, I think, 
frankly, Congress and many of the State legislatures have done 
important work in that area. I am not sure that the issue today 
is as much one of sentencing as it is making cases. As was 
pointed out by Director Freeh, the offenders who perform these 
acts do it over and over again, and in too many cases, they do 
not get caught. When they are caught, they are not sentenced to 
meaningful time.
    Senator Hollings. Meaningful time. That is my question. Is 
it meaningful time?
    Mr. Allen. I think in most cases it is not. But my point is 
I am not sure that that is a failing of statute or a failing of 
execution. For example, I think the Internet cases in some ways 
make it easier.
    Child molestation, child sexual exploitation generally, in 
many situations you will have a perpetrator and a young child, 
where it is one's word against the other. Prosecutors who do 
not want to retraumatize or revictimize the child by putting 
him through a long, drawn-out process, so that you have 
offenders pleading, in many cases, to offenses that do not 
convey the essence of what they did and getting no time for it.
    I think we have a training need there, and I also think 
that we probably should look at sentencing. It is sort of truth 
in sentencing to enhance the penalties that these offenders get 
when they are convicted.
    Senator Hollings. On the training, I did not catch it in 
your prepared statement, but regarding State and local law 
enforcement. I was glad to hear that you are training the State 
and local law enforcement. Can you describe that again?
    Mr. Allen. Yes, sir; we have, as a result of the initiative 
that you and Senator Gregg launched last year, we will be doing 
what we are calling cyberpolice training at the center, and we 
will also be taking part of that out to the States. So we will 
be bringing designated officers into the center, both 
investigators and mid-level managers, and running a special 
program to help give them the kind of expertise and knowledge 
that they need. That should start in June.
    Senator Hollings. You have the money to do that?
    Mr. Allen. Yes, sir; you gave us money in last year's 
appropriation.
    Senator Hollings. Is that enough? What is ongoing now, this 
minute? Do you have any schools, classes, officers attending, 
graduates? Where are we?
    Mr. Allen. What we are doing right now is doing a police 
chief and sheriff's program which we started last April. As a 
result of your appropriation last December, we are now building 
a program to start this spring for cyberpolice training.
    Could we use more resources for that? Yes, sir. It would 
enable us to reach more departments, more communities, touch 
more officers. I promised this committee last year that we were 
not looking for money. This was not about money. What we wanted 
to do was look for the most effective way to deliver services, 
and we would try to leverage that.
    But we can certainly do more.
    Senator Hollings. I think you have already saved us 
millions with your outreach, involvement of private industry 
and everything else. In helping to get the word out, you have 
saved the Government millions and millions.
    But when I hear the testimony that a child can be dead 
within 3 hours or something like that, and all kinds of 
entities, States, local agencies, have yet to receive the 
training, that worries me. When will all of these agencies in 
South Carolina get that training, according to your schedule?
    Mr. Allen. As soon as we can do it, Senator.
    Senator Hollings. Yes; but that does not tell me anything. 
Does that mean within 1 year? Or 10 years?
    Mr. Allen. Yes, sir; and I can't promise you that every----
    Senator Hollings. I am not pressuring you. I am trying to 
get the reality of it. I want to be able to show that we have 
enough money in here so we can get every State and every 
community, knowledge of what you are doing.
    Then you will find as you indicated before, that as soon as 
you put information on the CyberTipline, immediately it 
exploded with all kinds of information. People are ready, 
waiting, and able to participate, and want to.
    But when will we actually have the local police chief or 
sheriff with knowledge in how to bring about the enforcement 
and an awareness of these tools here for enforcement?
    Mr. Allen. I cannot give you an answer in terms of when 
every agency in South Carolina will be touched. I can tell you 
that we have had a number of chiefs and sheriffs who 
participated in this training already from South Carolina, 
including Sheriff Wells from Union County and Chief Greenberg 
from Charleston.
    So we are trying to reach as many as we can, and, frankly, 
we could do more, and we could do it faster, but what we are 
trying to do is target. Touch every State. Sort of prioritize, 
work with the FBI and with key agencies to identify sort of 
lead--and part of our approach, frankly, Senator, has been to 
try to train the trainers, so that we do not physically have 
to----
    Senator Hollings. That is what I am getting at. I mean, you 
can't just throw money at it and hope to get the proper 
training and everything else. We at the committee level are 
trying to find out what is realistic. You asked for an 
increase?
    Mr. Allen. No, sir, we didn't. But what I can do----
    Senator Hollings. You are the first person that has 
appeared before this committee that has never asked for an 
increase. We have to get you studied. [Laughter.]
    Let me ask again, what about trying to get the word out on 
public television? Have you approached the Corporation for 
Public Broadcasting? Maybe we on the committee ought to do it, 
because they ought to make a program on your endeavor, and that 
in itself would be educational.
    I know we are putting a lot of taxpayer money into PBS, but 
there ought to be a good, formative program, about the national 
center, its endeavor, how we are doing, what the FBI is doing, 
and everything else like that--not what Senator Gregg and I are 
doing--but literally what you folks are doing to get the word 
out. Put it on.
    Thank you, Mr. Chairman.
    Senator Gregg. I think that is a good idea.
    I would also hope--I mean, I do not think my family is too 
unique--but if you want to really communicate with my kids you 
do it through MTV, or VH-1.
    Mr. Allen. Exactly.
    Senator Gregg. So to the extent that we could get them 
involved, too, as well as the different service providers, I 
think that would be good. I am sure you are thinking of all 
those other options.

                         conclusion of hearing

    Well, again, we congratulate you on what you are doing. You 
are doing really a wonderful job, and the committee feels that 
every dollar we send to you has been extremely well used. There 
has been a tremendous return to the taxpayers, and that is 
nice.
    Thank you very much.
    Mr. Allen. Thank you, sir.
    Senator Gregg. This hearing is recessed.
    [Whereupon, at 11:28 a.m., Tuesday, March 10, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 
</pre></body></html>
